<html>
<title> - INVESTING IN HOMELAND SECURITY, CHALLENGES ON THE FRONT LINE</title>
<body><pre>[Senate Hearing 108-82]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 108-82

      INVESTING IN HOMELAND SECURITY, CHALLENGES ON THE FRONT LINE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2003

                               __________

      Printed for the use of the Committee on Governmental Affairs



87-739              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
ARLEN SPECTER, Pennsylvania          RICHARD J. DURBIN, Illinois
ROBERT F. BENNETT, Utah              THOMAS R. CARPER, Delaware
PETER G. FITZGERALD, Illinois        MARK DAYTON, Minnesota
JOHN E. SUNUNU, New Hampshire        FRANK LAUTENBERG, New Jersey
RICHARD C. SHELBY, Alabama           MARK PRYOR, Arkansas

           Michael D. Bopp, Staff Director and Chief Counsel
              Tim Raducha-Grace, Professional Staff Member
     Joyce Rechtschaffen, Minority Staff Director and Chief Counsel
        Michael A. Alexander, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Carper...............................................     3
    Senator Lautenberg...........................................     9
    Senator Durbin...............................................    14
    Senator Pryor................................................    29
Prepared statement:
    Senator Lieberman............................................    41

                               WITNESSES
                        Wednesday, April 9, 2003

Michael J. Chitwood, Chief of Police, Portland, Maine Police 
  Department.....................................................     7
Jeffrey Horvath, Police Chief, Dover, Delaware Police Department.    11
Edward P. Plaugher, Fire Chief and September 11 Incident 
  Commander at the Pentagon, Arlington County Fire Department, 
  Virginia.......................................................    13
Captain Chauncey Bowers, Firefighter-EMT-Paramedic, Prince 
  George's County Fire Department, Maryland on behalf of the 
  International Association of Fire Fighters (IAFF)..............    15

                     Alphabetical List of Witnesses

Bowers, Captain Chauncey:
    Testimony....................................................    15
    Prepared Statement...........................................    53
Chitwood, Chief Michael J.:
    Testimony....................................................     7
    Prepared Statement...........................................    43
Horvath, Chief Jeffrey:
    Testimony....................................................    11
    Prepared Statement...........................................    47
Plaugher, Chief Edward P.:
    Testimony....................................................    13
    Prepared Statement...........................................    50

                                Appendix

Chart entitled ``Federal Allocation of FY03 Homeland Security 
  Funds, One Size Formula Doesn't Fit All'' submitted by Senator 
  Collins........................................................    63
Chart entitled ``ODP State Homeland Security Grant Program Fiscal 
  Year 2003 Funding Allocations'' submitted by Senator Collins...    64
Chart entitled ``Illinois Community Homeland Security Needs'' 
  submitted by Senator Durbin....................................    65
Chart entitled ``Tangled Web of Federal Homeland Security Grant 
  Programs'' submitted by Senator Collins........................    68
Public Safety Wireless Network Program, ``The Report Card on 
  Funding Mechanisms for Public Safety Radio Communications,'' 
  Final, August 2001, submitted by Mr. Plaugher..................    69
Responses to Post-Hearing Questions submitted by Senator 
  Lautenberg for the Record from:
    Mr. Chitwood.................................................   111
    Mr. Horvath..................................................   114
    Mr. Plaugher.................................................   116
    Mr. Bowers...................................................   118

 
      INVESTING IN HOMELAND SECURITY, CHALLENGES ON THE FRONT LINE

                              ----------                              


                        WEDNESDAY, APRIL 9, 2003

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Carper, Lautenberg, Durbin, and 
Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order.
    Today, the Committee begins a series of hearings on how the 
Federal Government can best help our States, communities, and 
first responders protect our homeland. Last year, the Senate 
spent nearly 3 months on the Homeland Security Act, yet the law 
contains virtually no guidance on how the Department is to 
assist State and local governments and first responders with 
their homeland security needs.
    In fact, the 187-page Homeland Security Act mentions the 
issue of grants to first responders in but a single paragraph. 
There is no guidance on how Federal dollars should be spent or 
how much money should be allocated or to whom it should be 
allocated. Those decisions were left to another day, and today 
is that day.
    As we embark on this effort to improve homeland security 
grant programs, there is no more important group to hear from 
than our first responders who serve on the front lines 
protecting our communities. After all, when disaster strikes, 
it is our police officers, our firefighters, and our emergency 
medical personnel who answer the calls for help.
    We must invest in additional homeland security resources 
for our first responders. Just as our first responders stand by 
to protect our communities, they deserve a Federal Government 
that stands by them.
    The current structure of ``one-size-fits-all'' homeland 
security programs, however, is not doing the job.\1\ The needs 
of our States and first responders vary widely and are as 
diverse as the people who live there. We must make sure that 
Federal assistance is sufficiently flexible to meet these 
differing needs.
---------------------------------------------------------------------------
    \1\ The chart entitled ``Federal Allocation of FY03 Homeland 
Security Funds, One Size Formula Doesn't Fit All'' appears in the 
Appendix on page 63.
---------------------------------------------------------------------------
    When I met with Maine's emergency management officials a 
few weeks ago, they told me that the structure of many homeland 
security grant programs hinders their efforts to help first 
responders secure communities across our State. As you can see 
from this chart, the current Homeland Security Grant Program, 
administered by the Office for Domestic Preparedness--or ODP--
is part of the problem.\1\
---------------------------------------------------------------------------
    \1\ The chart entitled ``ODP State Homeland Security Grant Program 
Fiscal Year 2003 Funding Allocations'' appears in the Appendix on page 
64.
---------------------------------------------------------------------------
    ODP provides funding for training, equipment, exercises, 
and planning based on a uniform, predetermined formula for 
every State. That may sound good, but let us look at the impact 
of this formula.
    The exact same percentage of each State's funds is 
allocated for training, equipment, exercises, and planning, 
thus, leaving no room to accommodate different priorities. In 
each and every State, for example, 70 percent of the Federal 
funds must be spent for equipment, 7 percent must be spent for 
planning, 5 percent must be spent for training. In allocating 
funds in this manner, the Federal Government is effectively 
saying that Maine must spend exactly the same portion of its 
homeland security dollars on training as Hawaii or Delaware. 
Moreover, States cannot transfer surplus funds from one 
category to another to meet their needs.
    Maine's officials, for example, told me that they need more 
funding to train first responders to use the equipment 
purchased under the ODP grant program. The regulations, 
however, prohibited Maine from transferring surplus exercise 
dollars to train first responders in using the new equipment. 
Thus, in some cases, we may see communities with up-to-date, 
complex equipment, but lacking the training to use it most 
effectively. This defies common sense.
    I believe States should have the flexibility to spend 
homeland security dollars where they are most needed. To allow 
flexibility in homeland security funds that have already been 
appropriated, but remain unspent, I will introduce legislation 
later today that authorizes the Secretary of Homeland Security 
to grant waivers to allow States to use funds from one 
category, such as training, for another purpose, such as 
purchasing equipment, or whatever the need may be.
    I have also introduced legislation that would move the 
Office for Domestic Preparedness from the Border and 
Transportation Security Directorate to Secretary Ridge's office 
where it belongs. By elevating ODP's stature, I hope to begin 
the process of establishing a centralized location to help 
support our first responders.
    Let me take this opportunity to commend Secretary Ridge for 
his efforts to promote flexibility as he has worked to 
incorporate nearly two dozen agencies into the new Department 
of Homeland Security. But Secretary Ridge can only play the 
hand that Congress has dealt him, and we have left him a couple 
cards short.
    These hearings are intended to provide this Committee with 
the information to assess whether the current structure of 
grant programs is getting the right resources to the right 
people. The witnesses will address many of the roadblocks in 
our grant programs, including the lack of flexibility I have 
described, difficulties in communication and coordination. The 
hearings will also focus on what some have referred to as a 
tangled web of existing programs that is very difficult for 
States and local communities to penetrate.
    In the omnibus funding bill, as well as the supplemental 
appropriations legislation passed just last week, we put a down 
payment on the needs of our communities. The increased funding 
of programs such as the FIRE Act and the State Homeland 
Security Grants are important steps forward in providing 
adequate resources to our communities.
    I look forward to hearing from our witnesses today. We have 
a very distinguished panel of first responders, and it is my 
hope that they will work with us so that we can build a 
stronger and better homeland security partnership to better 
serve our Nation in the months and years ahead.
    It is now my great pleasure to call upon Senator Carper, 
from Delaware, for any opening remarks that he might have, and 
I am pleased that he could join us today.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thank you, Madam Chairman. I am delighted 
to be with you, as always. I like that, ``a couple of cards 
short.'' That is pretty good.
    I used to say that to him when he was governor of 
Pennsylvania. ``You are a couple of cards short, my friend.'' I 
will not tell you what he said in response. [Laughter.]
    I am delighted to be here with you, and the legislation 
that you will be introducing later today, I believe I get to 
have the pleasure of being your lead--your token Democrat.
    Chairman Collins. The lead and most important co-sponsor, 
and I thank you for that.
    Senator Carper. I am pleased to be a part of your team 
again.
    To our witnesses, thanks for joining us and welcome. We are 
especially pleased that Chief Jeff Horvath is here from Dover, 
and sitting back there on our right, the audience's left, is 
the Mayor of Dover, Jim Hutchinson, whom we affectionately call 
Hutch. He knows a thing or two about policing himself, having 
been a police chief in his youth, which was not too long ago. 
Hutch, it is great to have you here.
    I have a longer statement I would like to ask unanimous 
consent be entered into the record, and I would like to just 
give you a shorter statement now.
    Chairman Collins. Without objection.
    Senator Carper. I will be mercifully brief for our 
witnesses so we can hear what you have to say.
    I want to, again, welcome Chief Horvath today and to ask 
you to extend to the men and women you lead at the Dover Police 
Department, give them our very best.
    Dover is our capital city. Some people say it is the third-
largest city in Delaware. I do not know. Dover and Newark, 
which is the home of the University of Delaware, are about the 
same size. Our largest city is Wilmington, which only has about 
75,000 people, so we are not a State with a large population. 
We have got a lot of smaller towns, and Dover is right in the 
middle of our State, and it is a really neat place.
    Chief Horvath brings a tremendous amount of real-world 
experience that I think can be valuable as this Committee 
considers the Federal Government's relationship to first 
responders, and Chief we are glad you are here and grateful for 
the work that you and your men and women do every day, not just 
the people of Dover, but really for our State and all of the 
folks who visit our State capital.
    When this Committee worked last year under the previous 
Chairman--what was his name? [Laughter.]
    Chairman Collins. The movie star?
    Senator Carper. Joe Lieberman, that was his name. We 
created the Department of Homeland Security, and I think all of 
my colleagues hoped that what we were setting up would help the 
Federal Government to be better able to prevent and to respond 
to terrorist attacks.
    As of March 1, last month, we have in place the skeleton of 
an organization that should be able to pull together under one 
roof information on threats and vulnerabilities, and to use 
that information to improve security and to prepare first 
responders like those that are arrayed before us today.
    I look forward to working with my old colleague, Governor 
Ridge, now Secretary Ridge, and all of our colleagues here on 
this Committee to making sure that the Department of Homeland 
Security works the way it was meant to work.
    No matter how well Secretary Ridge does his work on the 
Federal level, we will not be much safer than we were on 
September 10, 2001, unless our first responders are better 
prepared to do their work on the local level. And while 
homeland security should certainly be a shared responsibility, 
it is vitally important that the Federal Government does its 
part to provide each State with enough first-responder aid to 
ensure that its citizens are adequately protected.
    I would like to see the Federal Government's financial 
commitment to homeland security increase overall, but as the 
Senator from the first State, from Delaware, I would especially 
like to see us fulfill our obligation to less-populous States.
    How many people live in Maine these days? We have about 
800,000.
    Chairman Collins. One point two million.
    Senator Carper. OK.
    Chairman Collins. Was that a quiz just to see if I knew my 
State well? [Laughter.]
    Senator Carper. I understand the need to give larger 
States, especially those with densely populated urban areas, 
enough money to protect their larger populations, but no State, 
including our States, should be less safe than our neighbors 
because we happen to have a smaller population.
    The Federal Government should be working to bring every 
State and locality to the point where they are capable of 
responding effectively to any potential threat. By distributing 
first-responder aid to States based largely on population, 
however, I fear that we may fail to do just that.
    The current formula for distributing first-responder aid 
ignores the fact that Delaware, small in population, though it 
is, is located in the Northeast corridor between New York and 
Washington, it ignores the fact that Delaware is home to a 
major port, to a major oil refinery, to a number of chemical 
plants, and that every day scores of ships make their way up 
and down the Delaware River, which is part of Delaware, by the 
way, and a lot of them come into the Port of Wilmington. We 
have scores of trains that ply their way up and down the 
Northeast corridor, trucks that make their way throughout I-95 
to destinations up and down the East Coast.
    The formula currently used also ignores the fact that Chief 
Horvath here, and the officers he leads, work every day to 
protect a major asset for our country, and that is the Dover 
Air Force Base facility that is playing a crucial role in the 
War in Iraq, as we help provide part of the air bridge between 
the United States and the Middle East.
    I look forward, Madam Chairman, to working with you. I 
especially am pleased with the new legislation that you will be 
introducing.
    Governors like to get Federal money, but we also like to 
get that Federal money with a reasonable amount of flexibility 
to use it in ways that make sense for our States. Just as Maine 
is different from Delaware is different from Arizona, we want 
to make sure that the monies that come to our first responders 
come in a way that allows us to use those dollars most 
effectively and appreciates the different challenges that each 
of our States represents.
    So, Madam Chairman, I am delighted that we are having this 
hearing. I am honored to be with you and pleased especially 
with our friends that have taken the time to be with us today. 
Welcome.
    Thank you
    [The prepared statement of Senator Carper follows:]
                  PREPARED STATEMENT OF SENATOR CARPER
    Thank you, Madam Chairman. I'd like to begin by welcoming Chief 
Jeffrey Horvath to the Committee. He is Chief of Police for the City of 
Dover, Delaware's capitol city and also its third largest. He brings a 
tremendous amount of real world experience to this hearing that can be 
invaluable as this Committee considers the Federal Government's 
relationship to first responders. Thank you, Chief, for the work you do 
every day to protect the citizens of Dover and for your contribution to 
our work today.
    When this Committee worked last year under Senator Lieberman's 
leadership to create the Department of Homeland, I think all of my 
colleagues hoped that what we were setting up would help the Federal 
Government be better able to prevent and respond to terrorist attack. 
As of March 1, we have in place the skeleton of an organization that 
should be able to pull together under one roof information on threats 
and vulnerabilities and use that information to improve security and 
prepare first responders. I look forward to working with Secretary 
Ridge and all of my colleagues on this Committee in making sure the 
Department of Homeland Security works the way it was meant to.
    No matter how well Secretary Ridge does his work on the Federal 
level, however, we will not be much safer than we were on September 10, 
2001 unless our first responders are better prepared to do their work 
on the local level. While homeland security should certainly be a 
shared priority, it is vitally important that the Federal Government 
does its part to provide each State with enough first responder aid to 
ensure that its citizens are adequately protected. I'd like to see the 
Federal Government's financial commitment to homeland security increase 
overall but, as a Senator from Delaware, I'd especially like to see us 
fulfill our obligations to less populous States.
    I understand the need to give larger States, especially those with 
densely populated urban areas, enough money to protect their larger 
populations. No state, however, should be less safe than its neighbors 
simply because it has a smaller population. The Federal Government 
should be working to bring every State and locality to the point where 
they are capable of responding effectively to any potential threat. By 
distributing first responder aid to States based largely on population, 
however, I fear we will fail to do this.
    The current formula for distributing first responder aid ignores 
the fact that Delaware, small in population though it is, is located in 
the Northeast midway between New York and Washington. It ignores the 
fact that Delaware is home to a major port, oil refineries and chemical 
plants. It ignores the fact that Delaware everyday hosts scores of 
ships, trains and trucks on their way to destination up and down the 
East Coast. It also ignores the fact that Chief Horvath and his 
officers work everyday to help protect the Dover Air Force Base, a 
facility that is now playing a crucial role in the war in Iraq.
    In a story in today's Wahsington Post, Secretary Ridge calls on 
Congress to create a new formula for distributing first responder aid 
that gives grater weight to risk and the presence of critical 
infrastructure and national icons. I applaud him for his efforts and 
hope that this Committee can work with him to draft a better formula. I 
also hope we can work with him to expand on the small-state minimum now 
used.
    A small-state minimum may mean that States like Maine and Delaware 
receive more first responder aid per-capita than more populous States 
like New York and California. When it comes to homeland security 
spending, however, per capita allocation is not a very meaningful 
measure of the effectiveness of the Federal aid program. Every state, 
big and small, must take certain steps and make certain expenditures in 
order to be even minimally prepared for a major attack.
    I look forward to working with Senator Collins and the rest of this 
Committee to ensure that the Federal first responder aid program takes 
risk into account without ignoring the needs of less populous States.

    Chairman Collins. Thank you, Senator.
    The Committee will now proceed to hearing from our 
witnesses.
    We are very pleased today to have an outstanding panel of 
dedicated public servants who are first responders, including 
police chiefs, firefighters and emergency medical technicians 
and, in one case, a firefighter who plays both roles, which is 
common throughout our country.
    First, I would like to welcome my friend, Michael Chitwood, 
who is the police chief in Maine's largest City of Portland, 
Maine. He has some 38 years of law enforcement experience, and 
I rely on him often in talking about the security challenges 
facing our country. I have no doubt that his advice will be 
very helpful to this Committee as we seek to craft legislation.
    Again, Chief, I want to thank you for all of the help that 
you have provided, for the outstanding leadership that you give 
the City of Portland's police force and for taking the time to 
be here with us today.
    Mr. Chitwood. Thank you.
    Chairman Collins. Our second witness is going to be Jeffrey 
Horvath, who as Senator Carper has pointed out, serves as Dover 
Delaware's police chief. He has moved steadily up the ranks, I 
understand, since joining the City of Dover in 1984 as a 
patrolman. His range of law enforcement experiences will help 
him to bring valuable perspectives to this hearing. And like 
Senator Carper, I am particularly interested in the 
relationship between the police force and Dover Air Base. That 
does add a whole new dimension to the threat facing Delaware, 
and I will be interested to hear from the witness on that 
issue.
    Our next witness that we will hear from is Chief Ed 
Plaugher--right? Have I got it wrong?
    Mr. Plaugher. It is OK.
    Chairman Collins [continuing]. The fire chief of Arlington 
County, Virginia. He also offers the Committee a wealth of the 
knowledge in discussing homeland security programs. His 36 
years of service began in February 1966. It is my understanding 
that the President has recently appointed the Chief as a Senior 
Advisory Committee Member to the Homeland Security Council.
    I would also point out that the chief served as the 
incident commander at the Pentagon on September 11, 2001. So he 
certainly brings firsthand experience of the role of first 
responders when a terrorist attack occurs.
    Finally, it is a great pleasure to welcome this morning 
Captain Chauncey Bowers, from Prince George's County Fire and 
Rescue. Captain Bowers brings to the Committee a dual 
perspective as both an EMT and a firefighter, and I think that 
is very important. I always want to make sure we hear from the 
EMT community as well when we hear from first responders. So I 
thank you for being here as well.
    I would like to start with Chief Chitwood if you would 
proceed with your testimony, Chief. Thank you for being here.

TESTIMONY OF MICHAEL J. CHITWOOD,\1\ CHIEF OF POLICE, PORTLAND, 
                    MAINE POLICE DEPARTMENT

    Mr. Chitwood. Good morning, again, to both you and Senator 
Carper.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chitwood appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    Senator Collins, from our many conversations, I know you 
understand many of Portland's concerns, and I appreciate the 
opportunity to help you and other Members of the Committee 
understand the challenges facing our police department in the 
post-September 11 world.
    In the City of Portland, we employ 164 men and women, with 
18 unfilled positions at any one time due to vacancies or long-
term leave. The effect that these unfilled slots have on my 
police department's manpower, however, is minuscule when 
compared to the effect that the lack of coordination and 
information sharing by Federal agencies has on our policing 
efforts.
    The post-September 11 environment calls for new Federal-
State-local partnerships. The Federal Government cannot, and 
should not, write a blank check to pay for round-the-clock 
surveillance of every possible terrorist target, but it should 
maximize Federal resources to coordinate Homeland Security's 
information and manpower with those local governments.
    Based on our experiences in Portland, Maine, I am certain 
that improved coordination and cooperation by Federal agencies 
could off-set the increased local expenditures that have 
followed the tragic events of September 11.
    In Portland, policing imperatives of a post-September 11 
world have caused taxpayers close to a million dollars in 
police staffing and overtime. Without a more thoughtful and 
significant Federal partnership, taxpayers will continue to pay 
more than their fair share, and the Federal Government will not 
get the most for its Federal dollars.
    Perhaps the best example of the need for better 
coordination is the joint Federal, State and local effort to 
protect the Portland International Jetport. Portland's Jetport 
is a very busy traveling point, connecting travelers to most of 
the hub airports on the Eastern seaboard.
    In 2002, over 120,000 flights carried more than 1 million 
people through Portland, and as everyone knows, Portland played 
an unwilling and a most unwelcome role to the September 11 
terrorist when two of the hijackers, Mohammad Atta and Abdul 
Alomari, used our airport to start their tragic journey.
    Prior to September 11, my department provided the Jetport 
with three officers from 5 a.m. until 10 p.m. Since September 
11, the Federal Aviation Administration and the Transportation 
Security Administration, have significantly increased the 
police presence at the airport and now require that I provide 
12 officers around the clock 24 hours a day. This represents 
approximately 2,270 8-hour shifts per year at a cost of about 
$1.2 million. We are willing and eager to provide manpower and 
resources to protect our community, but some of the requests by 
the FAA and the TSA just do not make sense.
    It has cost approximately, up to this day, $800,000 to meet 
the increased staffing needs at the airport, including the 
supplemental overtime requested by the FAA and the mandated TSA 
coverage, but the cost does not stop there. The extra hours 
Portland police officers spend at the airport often requires 
that the police department pay them overtime for their regular 
shifts, which is an additional $75,000, and these additional 
expenses do not account for the physical, emotional, and 
psychological toll taken on the officers.
    Excessive overtime takes its toll not only on the officers, 
but also on their spouses, their children, and their community. 
Excessive overtime can lead to increased risk for accidents and 
injuries, chronic fatigue, stress, and diminished 
decisionmaking ability.
    At the same time that I am required to increase my staffing 
at the Jetport by 600 percent, the Transportation Security 
Administration has hired over 160 new employees in Portland and 
has given them excellent training, and I think that they do a 
great job in protecting our airport.
    While the TSA monitors the Jetport with 160 employees, I 
have the responsibility for policing the Jetport, the 
waterfront, and the entire City of Portland with 164 people. If 
the TSA employees were given additional training, we could work 
with them to coordinate our efforts to secure the airport, 
decreasing police staffing needs and prevent additional costs. 
The point is that the Federal Government does not need to write 
more checks and spend more tax dollars if we work together in a 
coordinated fashion to force these agencies to be more 
proactive in partnering with us at a local level.
    Portland is home to a multi-use waterfront that serves as a 
gateway for cruise ships, oil tankers, fishing vessels, cargo 
carriers, and a pipeline. If these agencies fail to coordinate 
their effort, what will happen when my officers are asked to 
take an increased role in protecting Portland's port or the 
tank farms? If the Coast Guard and the TSA took steps to 
coordinate their efforts, we would be able to provide 
additional protections with our existing manpower and with a 
minimal cost to both local and Federal Government.
    We should consider the following:
    One, utilizing TSA resources to supplement airport security 
and reduce the need for uniform officers;
    Two, enhance communication between Federal, State and local 
law enforcement agencies to pool information and eliminate 
duplication of effort;
    Three, increasing local participation in determining 
policing needs and identifying potential terrorist threats;
    Four, employing the National Guard units to assist with 
short-term security needs in response to specific threats.
    Finally, with regard to new Federal resources for homeland 
security, we must make sure that they actually get to the local 
level in some coordinated fashion. So far we have received 
minimal additional resources to offset our increased 
expenditures. But, again, writing a check without any increased 
coordination of information or manpower makes little sense. It 
is doomed to fail.
    In your effort to revise the various homeland security 
programs, I urge you to look at the structure to make sure that 
you target resources in a flexible fashion to the local level 
and at the same time coordinate them with other Federal 
demands, such as increased staffing.
    I want to thank you again for the opportunity to testify 
before the Committee, and I look forward to answering any 
questions you may have.
    Chairman Collins. Thank you very much, Chief.
    I would like to stop our witness testimony right now and 
first see if the distinguished Senator from New Jersey, who has 
joined us, has any opening remarks that he would like to make.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. I appreciate that, Madam Chairman, and 
just listening to the testimony of the police chief from 
Portland, outlines the problem in absolutely stark and clear 
terms, and all of our witnesses here, I am sure, would share 
similar stories.
    But I commend you, Madam Chairman, for holding this hearing 
on homeland security and the challenges our first responders 
face. It seems that is the area that is most obvious to 
community leadership, first responders, police, fire, emergency 
service personnel, and in some cases hazardous laboratory 
people. It has a direct effect. And I notice that the chief 
said, also, that he had openings, vacancies, that were not 
filled to begin with, and I thought that presented a clear 
picture.
    But a significant amount of responsibility authority for 
public security is delegated to State and local governments, 
but across the country State and local governments are facing 
their biggest budget crises in over 50 years. Consequently, 
police, firefighters, and other first responders to the 
problems are stretched to the limit trying to protect our 
communities.
    The cost of bolstering security, especially when the U.S. 
Attorney General and the Secretary of Homeland Security raised 
the national terrorist threat level, it can be enormous.
    I have often talked to the Secretary of Homeland Security 
and asked why release this data? Why send out these alarms if 
there is no solution to the problem? Do you want people to just 
sit home? That is hardly the answer. Should they carry on their 
normal activity? Well, yes, but also looking over their 
shoulders at the same time to make sure that if they see 
anything suspicious they help out. We ask them to do that in 
case of a kidnapping, in the case of a threat by an escaped 
prisoner, or a felon in the area. So there is no reason not to 
call for that.
    And when you see the task that we have and the amount of 
funding that is required, 170,000 people in the Homeland 
Security Department, $33 billion in budgets, stretching across 
22 departments of government, it is a significant task in just 
shaping the process. And then allocating the funds and getting 
the communities to cooperate is a very difficult thing, but we 
have to do it.
    So when we have these alerts, I am told, and this is no 
military secret or intelligence secret, that the reason that is 
done, the reason they send out the amber, the yellow or 
whatever, is to alert the local folk--the governors, the police 
chiefs, those who are heads of departments of emergency 
response.
    Well, I would have hoped they could have done it neater and 
not scared everybody because, again, there is nothing we can 
do. We have to conduct our lives normally, and that is the 
objective.
    Last week, I met with the people from the New Jersey State 
Association of Chiefs of Police to discuss the tremendous 
pressure on local police and fire departments. After nearly 2 
years of excessive overtime, growing State deficits, limited 
Federal budgets, we need to bring relief to the communities 
that have sent first responders to the wars. Their costs can 
mean large holes in their security, as well as the financial 
costs, which are very tough to recover in periods of 
significant deficits in States and communities across the 
country.
    Another problem, which I am attempting to address through 
legislation, it arises when a jurisdiction's first responders 
serve in the National Guard or the Reserve and they get called 
to active duty for 6 or more months, and that is happening with 
more and more frequency, now that the war with Iraq is 
underway.
    According to the Police Executive Research Forum, nearly 
one-half of all law enforcement agencies surveyed have lost 
personnel to military call-ups. Reserves are a crucial 
component of our armed forces, but call-ups should not 
undermine our ability to respond to the need to protect 
communities against terrorist acts, national disasters and 
other emergencies at home.
    The bottom line is that protecting our country in the wake 
of September 11 will take people, equipment and other 
resources, and we cannot boost homeland security on the cheap. 
Unfortunately, since September 11, there has been a lot of talk 
about homeland security, but at every single turn, it has taken 
the effort of both Democrat and Republican Senators to try to 
provide additional funding to offset State and local 
governments' increased homeland security expenditures.
    So thank you, again, Madam Chairman, for your command of 
this Committee and for your diligence in dealing with the 
subjects that are in front of us, and I appreciate the fact 
that I am serving with you here and have the opportunity to 
participate this morning.
    Chairman Collins. Thank you, Senator. We will now turn to 
Chief Horvath for his statement.

TESTIMONY OF JEFFREY HORVATH,\1\ POLICE CHIEF, DOVER, DELAWARE 
                       POLICE DEPARTMENT,

    Mr. Horvath. Madam Chairman Collins, Senator Carper, and 
Senator Lautenberg, thank you for inviting me to appear before 
you today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Horvath appears in the Appendix 
on page 47.
---------------------------------------------------------------------------
    I commend you for calling this important hearing. Today, 
the challenges on the front line are great. Investments are 
needed more than ever before.
    I believe that Delaware has one distinct advantage over 
most other States in that it is very small. Due to Delaware's 
small size, the law enforcement community is able to form a 
very close relationship, and we are able to communicate with 
each other on a regular basis. The Dover Police Department 
currently hosts monthly meetings for the Delaware Police 
Chief's Council and each police agency in the State is usually 
represented at the meetings by either the Agency's chief or by 
a chief's representative.
    I only provide this information to let you know that while 
I cannot speak for all of the agencies in the State of 
Delaware, I know that the concerns that I will express in this 
statement are shared by many other agencies in Delaware.
    Delaware's governor, Ruth Ann Minner, is the lead 
Democratic governor for homeland security and delivered a 
nationwide weekly radio address on Saturday, April 5. In her 
address, Governor Minner stated, ``Here at home, Senator Ridge, 
the President's head of the Homeland Security Department, tells 
us there is risk of another terrorist attack. We do not know 
when or where the next attack will come, but we do know who 
will protect us when it does: Our police, firefighters, public 
health and emergency medical personnel. They are our neighbors, 
our family, our friends, and like our troops, they are ready to 
risk their lives for us. They are our hometown security.''
    I could not agree with this statement more, and I think it 
indicates how important it is for the Federal Government to 
work with the State and local agencies across this country to 
achieve our homeland security goals.
    Since September 11, police departments have been asked to 
do more for their communities than ever before; walk the beat, 
be on guard against terrorists, secure critical 
infrastructures. Despite all the good works of the new 
Department of Homeland Security, the burdens of security for 
the hometown fall heaviest on local police departments.
    There are more than 700,000 police officers and sheriffs in 
this country, compared with nearly 11,000 FBI agents. Police 
chiefs and sheriffs are called upon more and more to protect us 
against the new threats from abroad.
    Local budgets are incredibly tight, and I could truly state 
that the Dover Police Department is in a position that we may 
have to cut certain programs and services to our citizens if 
the city is unable to find other revenue sources in the future. 
All of this is occurring while we are tasked with new homeland 
security demands. All of this is happening while the FBI has 
been told to necessarily refocus its resources.
    Recently, it was reported that the FBI has plans to 
mobilize as many as 5,000 agents to guard against terrorist 
attacks during hostilities with Iraq. The FBI's criminal 
surveillance operations would be temporarily suspended. Local 
police will be called upon to pick up the slack once the FBI is 
forced to pull almost half of its agents out of traditional 
crime-fighting work.
    One of the top concerns for law enforcement in Delaware is 
that we are not receiving funds in a timely fashion. I have met 
with James E. Turner, III, the director of the Delaware 
Emergency Management Agency. He advised me that DEMA just 
recently received fiscal year 2002 funding in December 2002, 
and they are currently finishing up an application for fiscal 
year 2003 funding.
    Once again, I will state that Delaware is in an 
advantageous position due to its small size. DEMA is receiving 
$3.6 million in fiscal year 2003 for homeland security, which 
will be used for Delaware's police, fire, EMS, and HAZMAT 
agencies. The Delaware Police Chief's Council is currently 
working to provide DEMA with a comprehensive plan on how the 
funding that it designated for law enforcement should be spent.
    This will hopefully ensure that all police agencies in 
Delaware will receive their fair share of the funding, but you 
need to know that resources do not go directly to local police 
departments. They cannot be used to hire new police, they 
cannot be used to pay overtime expenses that we incur each and 
every time Secretary Ridge changes the alert level. They can be 
used to purchase equipment, but not by me. I have to wait for a 
statewide plan to be developed, and then I have to hope that a 
fair share of those funds will filter to my department.
    I feel it is also important to point out that many police 
departments serve in jurisdictions that are unique to the area 
and may place differing demands on that department. For 
instance, the Dover Air Force Base is located within the city 
limits of Dover. The Dover Air Force Base is an asset to the 
State of Delaware and to the City of Dover, but there are 
increased homeland security demands placed on the Dover Police 
Department due to its location.
    Dover is also home to the Dover Downs International 
Speedway. The event at the speedway brings in approximately 
$150,000 additional civilians into Dover two times a year.
    Federal assistance should be provided to local law 
enforcement for training needs, equipment needs and personnel 
costs. I also agree with the position of the International 
Association of Chiefs of Police in that it is important to 
distinguish between the assistance funds that will be provided 
to State or local law enforcement from programs administered by 
the Department of Homeland Security and those provided from the 
existing programs at the Department of Justice.
    Both programs provide funds to law enforcement agencies, 
but they address different, but equally important, areas of 
need. In other words, there is a concern in the law enforcement 
community that new assistance programs are being funded at the 
expense of traditional law enforcement assistance programs, 
such as the COPS program, the Local Law Enforcement Block Grant 
program and the Byrne Grant program. Homeland security programs 
are not duplicative programs, they are complementary programs. 
Effective anti-crime programs are effective anti-terrorism 
programs.
    This year, for the second budget cycle in a row, it has 
been proposed to eliminate the COPS hiring program. COPS is the 
only initiative in the entire Federal Government that targets 
its resources directly towards police. There is no middle man. 
Dover has added several police officers to its authorized 
strength in the past, and we will be adding four more in July 
2003 using COPS funding. This is a tremendous resource to the 
City of Dover and its citizens.
    I also feel that communications between Federal, State and 
local governments need to improve. There have been many times, 
since September 11, that I have learned that State and local 
law enforcement have been put on a higher alert status by 
watching the news. We were never given a call and never 
received a written notice of the increased threat level. I know 
that this is true for many law enforcement agencies in the 
State of Delaware. I will state, however, that communications 
seem to be slowly improving in this area.
    Communications also need to improve in regards to funding 
for homeland security. Law enforcement needs to be made aware 
of new and additional funding without actually having to search 
for it. Many times the demands of police work and the needs of 
our jurisdictions do not allow the necessary time required to 
stay on top of this very important aspect of homeland security.
    In closing, I would like to thank everyone for inviting me 
to this hearing and allowing me to speak. It has been an honor 
and a privilege. I would be pleased to try to answer any 
questions at the appropriate time.
    Thank you.
    Chairman Collins. Thank you, Chief.
    We will now turn to Chief Plaugher.

TESTIMONY OF EDWARD P. PLAUGHER,\1\ FIRE CHIEF AND SEPTEMBER 11 
   INCIDENT COMMANDER AT THE PENTAGON, ARLINGTON COUNTY FIRE 
                      DEPARTMENT, VIRGINIA

    Mr. Plaugher. Good morning.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Plaugher appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Chairman Collins. Good morning.
    Mr. Plaugher. Madam Chairman and Members of the Committee, 
I am Edward Plaugher, Chief of the Arlington County, Virginia, 
Fire Department, and begin by thanking you for having me here 
today.
    I have submitted for the record a statement which I will 
not read, but at this time would like to bring to the 
Committee's attention several key points.
    First, I appear today on behalf of front-line service 
providers across our Nation. First responders have, and will 
continue to be, on the front lines for homeland security. 
Assuring that each citizen is protected, to the highest degree 
possible, is the responsibility of today's first responders.
    Congress, because of this need, has designed, over recent 
years, a multi-layer, multi-department funding stream. 
Utilizing this approach has led to total confusion and, in most 
cases, a total lack of action. We, as a Nation, cannot afford 
this confusion and, most importantly, we cannot afford this 
lack of action.
    I ask that a streamlined, direct approach be undertaken. 
The system that I envision would recognize that the effects of 
terrorism attacks occur locally and that we must maximize our 
collective efforts to prevent terrorism, reduce risk and design 
preparations that respond effectively, that the programs are 
locally focused and are designed to build upon existing 
resources.
    Key to this effort is citizen participation and 
preparedness. I request that at least 10 percent of all Federal 
funding be utilized to encourage our citizens to participate in 
our protection efforts. We need to strengthen our citizen-based 
preparedness.
    In addition, the private sector capability in this Nation 
is enormous. We must find a way that the private sector 
resources, and in particular those in the construction 
industry, are utilized in an effective and efficient manner. 
They can, and will, and are usually willing to assist the 
responders.
    However, we need to provide a structure that folds the 
public and private resources into an incident command structure 
that will enable every community to leverage its resources into 
an effective homeland security program.
    Regional preparedness, however, holds the key. Federal 
funding needs to leverage its effectiveness by using a regional 
approach. Local governments must build a baseline of capacity 
and should not be forced to have redundant basic resources. As 
an example, each region must assure that adequate hospital surg 
beds are available and that surg medical support staff are also 
available. This lends itself to a regional resource-sharing 
solution.
    Federal programs that mandate target goals for 
preparedness, however, are the key. Just like the real issue is 
not homeland security, but how to be secure in an open society, 
preparedness is not about buying protective suits, but about 
developing systems that are needed to support the first 
responders.
    In summation, I would like to ask that Congress simplify, 
to the extent possible, make sure that we have a national 
standard of preparedness, a national strategy, and that the 
private and citizen sector of our community be folded into the 
process. Assuring the Nation is ready to respond to homeland 
security needs must be simple, straightforward and accomplished 
without delay.
    I look forward to your questions at the appropriate time.
    Chairman Collins. Thank you very much, Chief.
    Before turning to Captain Bowers, I want to call on Senator 
Durbin to see if he has any opening comments that he would like 
to make.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Madam Chairman, thank you for this hearing, 
and I am sorry I stepped in a few moments late, but I wanted to 
come. I think this is critically important, and I think we face 
two challenges:
    First, how to respond to the reality of terrorism when we 
know that the world is more likely to call 911 than their 
Senator's office if something happens; and, second, how do we 
do it in a context where we are dealing with the largest 
Federal deficit in the Nation's history and most State and 
local governments are facing the largest deficits they have 
seen in recent memory?
    It is an extraordinary challenge. I am glad you are having 
this hearing, and I think that your goal of more flexibility in 
transferring these funds is something that will be important to 
my State and many others.
    Thank you.
    Chairman Collins. Thank you very much, Senator.
    Captain Bowers, thank you for being here. You may proceed.

   TESTIMONY OF CAPTAIN CHAUNCEY BOWERS,\1\ FIREFIGHTER-EMT-
PARAMEDIC, PRINCE GEORGE'S COUNTY FIRE DEPARTMENT, MARYLAND, ON 
BEHALF OF THE INTERNATIONAL ASSOCIATION OF FIRE FIGHTERS (IAFF)

    Mr. Bowers. Good morning, Chairman Collins and Members of 
the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bowers appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    My name is Chauncey Bowers, and I am a firefighter-EMT-
paramedic with the rank of Captain in the Prince George's 
County Fire Emergency Medical Services Department. I am here 
representing the Nation's 260,000 professional firefighters and 
EMS personnel who are members of the International Association 
of Firefighters.
    To those of us in the fire service, September 11 changed 
the world. It is in the memory of the 343 firefighters lost on 
September 11 that we are committed to ensuring that 
firefighters have the resources to protect our communities and 
our Nation.
    In the current environment, fire departments are facing the 
dual pressures of homeland security and reduced resources 
caused by local budget deficits. This is a recipe for disaster. 
We need a national commitment to homeland security 
preparedness. We must work to ensure that every fire department 
in America has the resources to protect our citizens.
    While much of this work needs to focus on the unique 
challenges posed by weapons of mass destruction, we cannot 
overlook other dangers. The worst terrorist attacks on our 
Nation, including the tragedies of September 11 and the 
Oklahoma City bombing, were carried out with conventional 
weapons.
    The first and foremost need of the fire service is adequate 
personnel. Both OSHA and the National Fire Protection 
Association, the consensus standards-making body of the fire 
service, have issued standards for safe fire ground staffing. 
Unfortunately, most fire departments do not comply with these 
safety regulations, often leading to tragic consequences.
    Even after September 11, short staffing is common in every 
part of the country. In Maine, for example, not a single fire 
department complies with the NFPA standards. Portland and Old 
Orchard Beach are among the communities considering laying off 
firefighters. While this staffing crisis must ultimately be 
addressed at the local level, there is much that the Federal 
Government can do, and I must take a moment to commend both 
Chairman Collins and Ranking Member Lieberman for helping to 
point the way.
    Your leadership in working to create a Federal grant 
program to aid firefighters is deeply appreciated by every 
firefighter in this Nation. It is on their behalf that I thank 
you. The SAFER Act, as this grant proposal is known, provides 
grants to local fire departments to fund the hiring of 75,000 
additional firefighters.
    Fire departments would apply for 4-year grants that would 
contribute towards the cost of hiring these new firefighters. 
Local jurisdictions would then be required to retain the 
firefighter position for at least one additional year.
    The second need of the fire service is equipment. An IAFF 
study found shortage of personnel protective equipment, 
respirators, and communications equipment. A FEMA study had 
similar findings. Approximately, 57,000 firefighters lack 
personal protective clothing. One-third of firefighters are not 
equipped with self-contained breathing apparatus and many fire 
departments do not have enough portable radios to equip more 
than half of the firefighters on shift.
    To address these concerns, the International Association of 
Firefighters endorses full funding of both the FIRE Act and the 
First Responder program. The FIRE Act provides grants directly 
to local fire departments for basic needs. The First Responder 
program provides grants to States and localities for the 
purchase of specialized terrorism equipment.
    Training is the third major need. Firefighters need 
training in fire suppression, emergency medical services, 
rescue, hazardous materials and weapons of mass destruction 
response. A FEMA study found that 27 percent of fire department 
personnel involved in providing emergency medical services 
lacked any formal training in those duties. Incredibly, 73 
percent of fire departments failed to meet Federal regulations 
for hazardous materials response training.
    One of the obstacles to training that has arisen over the 
past year is that many jurisdictions lack the funds to back-
fill positions of firefighters assigned to training. Even in 
places where funds are available, many fire departments do not 
take advantage of these opportunities because they cannot 
afford the overtime pay for the firefighter who is filling in 
for their colleague while at training.
    To address the need for training, we urge Congress to fully 
fund both the FIRE Act and the programs run by the Office for 
Domestic Preparedness. The FIRE Act can be used for most basic 
training, including emergency medical services, and the Office 
for Domestic Preparedness programs provides some of the world's 
best weapons of mass destruction response training.
    Fire departments provide 80 percent of emergency medical 
services in the United States, and we are the largest provider 
of pre-hospital emergency care. Fire-based emergency medical 
services featuring cross-trained, multi-role firefighters is 
the most effective delivery system for emergency medical 
services.
    When we talk about the fire service, you are talking about 
emergency medical services. As a firefighter and paramedic, I 
can tell you firsthand that virtually all of the needs of the 
fire department apply to the emergency medical services arena. 
Fire-based EMS providers need additional personnel, equipment, 
and training, and like the fire service, terrorism poses new 
challenges for EMS.
    EMS providers need training in detecting the telltale signs 
of biological and chemical exposure and identifying the 
symptoms of specific pathogens or agents while protecting 
themselves from these hazards. Fire-based EMS providers also 
need training and equipment to decontaminate and treat large 
numbers of victims that may result from these incidents.
    Finally, on the issue of program structure, the 
International Association of Firefighters sees no conflict 
between the FIRE Act and the First Responder program. The FIRE 
Act, again, funds the basic needs of the fire departments 
locally. The First Responder program is for terrorism response. 
It is imperative that both programs are fully funded and remain 
separate and distinct.
    As Congress evaluates these programs, the International 
Association of Firefighters offers the following comments:
    Many of our fire service colleagues feel that FEMA must 
continue to operate the FIRE Act. We share those concerns. 
However, if the decision is made to move the program to the 
Office for Domestic Preparedness, we strongly urge Congress to 
require ODP to administer the program in the current manner and 
retain the following three key principles:
    First, enhance homeland security by addressing basic fire 
department needs;
    Second, the grants must be provided directly to local fire 
departments, where they will translate into equipment, 
training, and personnel;
    Finally, continue the peer-review process, utilizing 
firefighters and determining where this money can best be 
spent.
    We also urge adequate funding for the First Responder 
program, however, we feel that grants should either be provided 
directly to local agencies or local communities or the States 
should be required to send 90 percent of the funding to 
localities within 30 days.
    Further, the definition of a first responder is overly 
broad. In a community's emergency response plan, the funding to 
train and equip first responders must be targeted to fire, 
police, and EMS.
    In conclusion, firefighters are the linchpin to an 
effective homeland security. We will respond when the next 
alarm rings, but our ranks are thin. The Federal Government 
must provide the resources to ensure that another September 11 
does not happen. Firefighters need sufficient staffing, the 
right equipment and the proper training to do our job safely 
and effectively.
    Thank you for this opportunity to present the view of the 
International Association of Firefighters, and I will be happy 
to take questions at the appropriate time.
    Chairman Collins. Thank you very much, Captain.
    Chief Chitwood, I want to start my questions with you. You 
mentioned in your testimony that the City of Portland has 
incurred costs of some $800,000 since September 11 for 
increased staffing at the airport, and as I understand it, that 
increased staffing is federally mandated by the requests you 
are getting from FAA and TSA; is that correct? That this was 
not an action taken by the city on its own, but rather in 
response to Federal requests?
    Mr. Chitwood. Correct, Senator.
    Chairman Collins. Has the city and your police department 
received any funding from the Federal Government to help cope 
with that enormous hit on the city's budget?
    Mr. Chitwood. With respect to the monies that are spent at 
the airport, through the Jetport Enterprise Fund and through 
the mandate of TSA for personnel, we have been reimbursed for 
those particular monies.
    For the flip side of that, for all monies that are spent to 
fill the shifts that are left open because we are at the 
Jetport, no.
    Chairman Collins. And that is your point about the 
increased overtime that the department is incurring because its 
officers are at the airport, rather than perhaps controlling 
the streets of Portland?
    Mr. Chitwood. That is correct.
    Chairman Collins. That cost is being borne by the city 
without any reimbursement from the Federal Government?
    Mr. Chitwood. That is correct.
    Chairman Collins. I am interested in the comments that all 
of you have made about whether the funding that we are 
providing for homeland security actually makes it down to the 
local police department, the local fire department, to EMTs 
because that is our intent. We have appropriated literally 
billions of dollars for homeland security, but is it making its 
way down to the local level?
    Chief Plaugher.
    Mr. Plaugher. Absolutely not. As I talk to my colleagues 
around the Nation, the frustrations just continue to mount. The 
bureaucracy is just consuming the energy, consuming the monies, 
and at the end of the stream is very little, if any, monies.
    In my community, for the years--and I hope I get the right 
years because it has taken so long I am actually forgetting 
what years we are involved with--I think the first set of 
monies, through some of the State and local assistance programs 
was in Federal year 1999, and then 2000, 2001, 2002.
    We just recently got a block of monies from I think it was 
2000, 2001, 2002. By the time it got to us, it was such small 
monies that we could only use it for one purpose, and that was 
to buy regulators for our firefighters because our current 
regulators failed to pass the test and were not effective 
against chemical and biological agents. So we were forced to 
then buy regulators for that purpose because of our needs and 
the subway system in the Washington metropolitan area.
    So, again, when it did come to us, it was in such small 
amount that it only could go for one purpose and one purpose 
only. And because it was a regulated program, we could only use 
it to buy equipment. Now, we did have a need, but if, in fact, 
we did not have a need for that, we would have been forced to 
have said back to the State that we were unable to use this 
money because it was very specifically regulated for one 
purpose and one purpose only.
    So there is not flexibility, and the amount that comes out 
at the end of the stream is very small.
    Chairman Collins. I think the lack of flexibility is an 
excellent point because you know best what your needs are, and 
I think it is one reason we are seeing these unspent balances, 
also, in the monies that the States have received.
    Mr. Plaugher. In the Commonwealth of Virginia, we 
participated, as mandated by the Department of Justice program, 
we participated in the assessment, a risk assessment and risk 
hazard. We were not, as we participated in that, we did not 
particularly agree with the outcome, but had no choice but to 
accept the State's outcome. As a matter of fact, in the State's 
list of hazards, in the Commonwealth of Virginia, the Pentagon 
was at the bottom of the third page, and each page had about 75 
to 80 target hazard properties on it. So it was not even rated 
high on the list of target hazards. And so that would have 
meant we would have, using that formula, we would have received 
no Federal funding for an obvious national symbol, national 
hazard.
    So, again, these programs have been very convoluted, they 
are difficult to follow, they are difficult to work with in the 
State systems, and so where they are intended for the first 
responders, it usually is not getting there.
    The last study that was done, by a private institute, found 
that less than 2 cents actually ended up in the first 
responders' hands, 2 cents on the dollar.
    Chairman Collins. That is a major disappointment and a 
major problem and one reason that I wanted to convene this 
hearing.
    Captain Bowers, aside from fire grants which, as you 
pointed out, was a preexisting program and goes directly to 
fire departments, are you receiving homeland security money as 
a result of these billions of dollars that we are 
appropriating?
    Mr. Bowers. Well, I would have to echo the chief's 
comments, that process is very slow and cumbersome, and the 
money is a long time coming in the end. When you opened this 
hearing, you made some comments about restrictions on use of 
the money and restructuring to put this in a central location. 
I think your efforts in that area are 100 percent on target.
    Some of the problems that we have experienced is when a 
grant is applied for, we may identify Item A, but by the time 
that is approved and we are ready to purchase equipment, there 
may be a new item, Item B, that is now available, but in order 
to switch from Item A, which we specified in the application, 
to Item B, there is an entire bureaucratic process to get that 
approved. That, again, delays the amount of time it takes us to 
have the equipment.
    Having these programs in a central office will also 
eliminate the problems that we face now, where sometimes it 
goes through the State, sometimes it goes directly to a Federal 
agency, and the guidelines and the management of these grants 
are different for each and every program.
    Chairman Collins. Thank you. My time has expired, but I 
just want to give Captain Horvath a chance to respond to the 
same question of whether the money is getting down to the local 
police department in Dover.
    Mr. Horvath. I will quote him when he said, ``Absolutely 
not,'' because my police department has not seen any of it, and 
that is the quick answer. We keep hearing of this money, and no 
one can tell us when it is coming, when we are going to get it.
    And then it has to go through DEMA, which for part of the 
process I think is a good thing because, Delaware being small, 
again, I keep harping on that, but we are putting together a 
plan to give to them on what equipment first responders should 
have in their cars with them so all police officers in the 
State will have the same equipment. It will work together. We 
can go and help another jurisdiction out and actually share 
equipment if we have to. That part of it is a plus.
    But there are other needs that each police department 
needs, and each police department may have different things in 
their jurisdiction, as I mentioned. They may have different 
needs. It would be nice if the money was more flexible and if 
some of the money could directly come to the police departments 
themselves and not through a middle man, so to speak.
    Chairman Collins. And, finally, Chief Chitwood, you 
mentioned some reimbursement for the airport costs, but 
obviously we have a major port in Portland. Are you receiving 
Federal funding directly to the police department to assist 
with those costs?
    Mr. Chitwood. No, we are not. In fact, to answer that 
question, if I could expand on my answer, over the years, 
starting in 1994, any time we needed money for a policing 
program, we always had to apply to the State, who received the 
grants directly from the Federal Government. And any time we 
made a request, our request was either filled partially or not 
filled at all.
    Subsequently, I think the Federal Government did one of the 
best things for law enforcement that I have ever seen in my 38 
years, and that was allow the local police departments to 
articulate a particular need directly to the Federal 
Government, and the following programs that I am talking about 
were the Universal Hiring Grant, which supplied police 
departments across the country, with the COPS program, the 
Officers in Schools program.
    You fill out an application, you articulate your need, the 
Federal Government sends you the money, you hire the officers. 
There is no bureaucracy, there is no breakdown. We look at 
other block grants that we can apply directly to the Federal 
Government to enhance technology in our organization. For the 
last 7 years, we apply for these grants once a year. After we 
articulate a need, we get those monies, no middle man. We do 
not have to deal with the State bureaucracy, directly with the 
Federal Government.
    And I truly believe that when you look at homeland 
security, if the departments who could articulate the greatest 
threat risk could apply directly to the Federal Government and 
receive those monies, whether they are any one of our four 
organizations or across the country, and like it has been said, 
each community has a different need. And I think once you 
articulate that need to the Federal Government, then those 
monies could be supplanted directly to the department.
    For example, in Maine, Portland has a much more need than 
Bethel would have, but yet, under the formula, everybody would 
be getting the same amount of money vis-a-vis the State 
guideline. And I think that having the ability to apply 
directly, articulate the need, look at the threat-risk 
assessment, and then those monies go directly to the 
department, I believe that the needs of the localities could be 
filled in a very quick and professional way where they could be 
spent to protect our communities.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thanks, Madam Chairman.
    I have some specific questions I want to ask a bit later of 
Chief Horvath, as it relates to the Dover Air Force Base and 
the relationship that you have with the folks that are 
providing the security at the base and how that affects your 
responsibilities and those of your department.
    Before I do that, let me ask a general, broader question. A 
lot of times when we have a hearing like this, it is helpful to 
me, and I hope to our Committee Members, to hear where you 
agree, and sometimes we hear different messages from different 
parts of the country. It will be very helpful to know the major 
points, as you listened to the testimonies of your colleagues 
at the desk, where do you agree in terms of what steps we 
should be taking in the Congress, Legislative and Executive 
Branches? Where do you see a consensus and major priority 
points of agreement?
    Captain Bowers, we have a beach in Delaware named after 
you, Bowers Beach. That is the home of the Heartbreak Hotel, a 
legendary place. [Laughter.]
    If you ever come to Delaware, visit your beach.
    Mr. Bowers. I will.
    Senator Carper. Go to the Heartbreak Hotel.
    But the major areas that you are agreeing, as to how they 
relate to an action agenda for us.
    Mr. Bowers. Well, the first has got to be that the money is 
not making it to the local level. That is foremost. I think we 
also agree that the process needs to be streamlined, and Chief 
Chitwood just hit it right on the nail. We need to streamline 
that process so that the need can be articulated and funded.
    And, finally, I think another major area that we all agree 
is if we can get those things done, then the first responders 
at the local level will have the equipment, the training, and 
the personnel that they need to respond to these threats in a 
coordinated fashion. That is also key, that it be coordinated.
    Senator Carper. Thank you.
    Is it Mr. Plaugher?
    Mr. Plaugher. Plaugher, yes, sir.
    Senator Carper. We will learn that name before this hearing 
is over.
    Mr. Plaugher. Thank you, sir. [Laughter.]
    I think the captain is absolutely on target. When we go 
through the State process, what comes out the end was not what 
was intended, oftentimes. And it needs to be, as the chief at 
the end of the table was talking about earlier, it needs to be 
a straight direct to the local governments. That is where the 
protection is going to occur. That is where the response is 
going to occur.
    The States, however, have needs, and I cannot dismiss that. 
We work in a Nation that is the United States, and the States 
have a key role in this process, as I am sure you are very 
aware. And so I am not trying to dismiss the absolute needs of 
the various States, and the State resources and the State 
coordination effort that is absolutely critical in homeland 
security.
    But for the Federal Government, through its programs, to 
tie the hands of the State officials, when I asked the State 
coordinators, How come this system is the way it is? They say, 
We have no option. This is the mandate. This is the program, 
and if you want the little bit that comes out at the end, you 
have got to do X, Y and Z.
    And so, again, Senator, there is no flexibility in the 
program, and the poor State coordinators, they feel very 
frustrated. As a matter of fact, yesterday, I received a letter 
from the commonwealth security coordinator, the former 
lieutenant governor, John Hager. He sent a letter back to the 
Northern Virginia Regional Planning Commission--it is now 
called the Northern Virginia Commission--that is trying to 
undertake a regional effort.
    Because of the complexities of the D.C. region, the three 
States' involvement, we prefer to use a regional effort. And we 
had requested that our Federal funds come to a regional program 
for preparedness. We are actually trying to create a system 
called a MIST, which is a Mobile Incident Support Team, to 
bolster the communities' resources from the 3-hour to 6-hour, 
3-hour to 12-hour response window because most local 
governments can do 2 to 3 hours. After that, they need 
additional resources, very specific resources for a 
catastrophic incident, and so we have requested this MIST, and 
we wanted to do it regionally.
    The bottom line of the letter that came back from the 
former lieutenant governor was we do not have that latitude. We 
do not have that flexibility, and so again we feel like we are 
constrained. You ask us to come up with solutions, we come up 
with solutions. We think they are straightforward and make good 
sense for our particular needs, but the program does not allow 
it. So, again, frustrations prevail.
    Senator Carper. Thank you. Chief Horvath.
    Mr. Horvath. I agree with what both of them have said. I 
think some of the money from the Federal Government has to be 
earmarked to come directly to the Agency. I also agree with 
what the chief just said, some of it has to go to the State. I 
tried to say that in my statement where the money is going to 
DEMA, and it is going to be spread out equally among the police 
departments, and I think that is a good thing the way that is 
being used because we will all be on the same page when we are 
responding to these incidents.
    I also agree that the money has to be flexible in how it 
can be spent, but we also have to justify how we spend it. We 
have to be held accountable. And one of the big things, I 
think, the money has to get to us quicker. I mean, September 11 
was 2001, and my department and his department, we have not 
received any money, and we are getting ready to come up on 
September 2003.
    Senator Carper. Two wars will have intervened.
    Mr. Horvath. Excuse me?
    Senator Carper. Two wars will have occurred during the time 
from those events of September 11. All right. Thank you.
    Mr. Chitwood.
    Mr. Chitwood. I agree. I mean, it is funny. I have not had 
the opportunity to even speak to these gentlemen, and it is 
like we each wrote a piece of what we were going to write. So 
there are commonalities across the board.
    I just would emphasize once again that the Federal 
Government, through the Department of Justice and their 
programs, have already established, in my opinion, from a law 
enforcement perspective, a way to get the monies to the local 
departments across the country and responsibility for spending 
those monies in a way that protects each community.
    You do not have to rewrite the process. It is here. It is 
there, and I think that if that would continue, as we face a 
new world of terrorism, I believe that will work that way. I 
really do.
    Senator Carper. Thanks.
    Madam Chairman, will there be a second round of questions?
    Chairman Collins. Yes, there will be.
    Senator Carper. I will be back. Thanks very much.
    Chairman Collins. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    You have presented us with several problems as we listened 
to the testimony. It has been very enlightening, and I thank 
each one of you for your contribution.
    One thing stands out pretty sharply, and tell me if I am 
misinterpreting what has been said or intimated here, and that 
is if you are requested, as in the case of your department, 
Chief Chitwood, to put people at the airport, is that a 
mandate? Forget about whether or not it is a good idea. I mean, 
we are assuming it is a good idea. Is that a mandate that you 
put 12 officers out there to cover the responsibility they want 
you to cover? And do you pay for it out of your regular budget?
    Mr. Chitwood. The officers that are assigned to the airport 
are paid out of two funds. One is what they call Jetport 
Enterprise Fund, which basically is monies that the airline 
carriers and other vendors in the airport, that use the 
airport, put into a pool, and then the other monies, a portion 
is paid for by the Federal Government, either TSA and/or FAA.
    Senator Lautenberg. So that does not cost you anything, 
realistically.
    Mr. Chitwood. No, sir.
    Senator Lautenberg. And in every case, Chief Horvath, or 
our fire department people, if you are asked to put people at 
the airport or another sensitive place, do you always get 
compensated for that?
    Mr. Horvath. No, sir. I can speak for the Dover Police 
Department. We have increased security, obviously, around Dover 
Air Force Base. It is part of the request, and part of it you 
hit on. It is a good idea, and I think we have a responsibility 
to the people we protect to act on our good ideas. That is 
absolutely a good idea.
    The Federal Government, the base does not offer us 
financial assistance, and quite frankly we have not expected 
them to. They are a good neighbor, and we try to serve. It is 
an increased burden on the police department, and it would be 
nice if there were funds available to provide overtime for that 
protection, for the perimeter checks, and the other things that 
we do.
    Senator Lautenberg. Well, is it fair to say that even 
discounting that obligation or that cooperation, that your 
costs have gone up just generally significantly since we have 
been on the alert, we will call it?
    Mr. Horvath. A lot of times, speaking for myself, if you 
looked at the budget, you probably could not see it, but what 
we have done is taken officers from other units and put them 
out doing security checks at various times. So now you are 
taking away services that you normally would offer.
    Senator Lautenberg. Would render.
    Mr. Horvath. Just to give you an example of an impact we 
have had, we use our Speed Enforcement Unit to do a lot of the 
checks while they are working. We do not do speed enforcement 
in Dover to raise revenues. We do it to enforce compliance to 
the law.
    We have this year, in 2002, seen a decrease in traffic 
tickets issued and a substantial increase in traffic accidents 
within the city limits. Now, I think there is some connection 
there. Maybe it is not all due to the perimeter checks, but I 
know our guys are doing less enforcement, and it is showing.
    Senator Lautenberg. There is a cost whether it is just in 
dollar amounts or reduced coverage that otherwise would be 
afforded. I called my hometown in New Jersey and spoke to the 
chief there, whom I know, and they, out of about 100 officers, 
they only had 2, and I am now talking about first responders 
because I have introduced a bill to reimburse those communities 
that lose first responders to the military who are away for 
more than 6 months because it is very tough in communities, I 
do not care what State you are in, to simply go to the 
taxpayers and say, ``Hey, you know, we need another $200,000. 
Your share is $200 a year'' or something of that nature.
    So I introduced a bill that says if someone is away 6 
months, and the community is not able to recover the costs for 
paying them--now, some communities, and I think, Madam 
Chairman, this was mentioned here at one meeting, and it 
surprised me, and I have been around for a couple of wars, and 
one I fought in myself, but let us not have a guessing game. 
[Laughter.]
    It was not too recent. Anyway, the fact of the matter is 
that I always thought that in law, when people were Reservists 
and called up, that there was an automatic requirement that the 
employer, whomever it was, was required to pay some 
compensation, and that is not the case at all. Many companies 
do not do it, and many communities do not do it. And that is a 
burden, I think, that ought to be borne nationally by the 
taxpayers of the country because it does not matter whether you 
come from New Jersey, if you are in Iraq, you are out there 
protecting everybody, and so it is with all of your States as 
well.
    But I was struck by something that I saw, and that is the 
differences, and this requires a lot of review. In Baltimore 
City, Maryland, more than 150 members of the police department 
have been called up to serve in the military. It is almost 15 
percent of the total force. Well, I think that we ought to make 
sure that they have enough people to take care of their basic 
requirements, their everyday requirements. A city like 
Baltimore is a complicated city, a big city.
    But, also, Madam Chairman, I noted something else in the 
distribution here that talks about Homeland Security Grants, 
and it shows each of the States, and it shows the per-capita 
contribution that is made. And, of course, I looked to New 
Jersey, and Chief Horvath said there is some advantage to being 
small. Well, we are small, but we are crowded and small, and we 
have almost 8.5 million people now in the State, and we get 
$1.69, and without picking on any other States present, there 
is quite a difference in the size of the distribution. So it is 
pretty obvious that we have to look at the formula and make 
sure that we are doing the right thing.
    So, Madam Chairman, you are doing the right thing here. We 
have to make sure that the protection we afford our citizens 
from enemies abroad is not any greater than the protection we 
afford our citizens from enemies within our borders or our 
communities.
    We cannot ask the cities and towns across America to give 
up a part of what they have to do normally to send people 
overseas. And I want to support the war effort. I mean, there 
is no doubt about that, but we have to make sure that these 
communities get compensated for the extra costs they incur.
    Thank you very much, to all of the witnesses.
    Chairman Collins. Thank you, Senator. Senator Durbin.
    Senator Durbin. Thank you very much, Madam Chairman, and 
thank you for this hearing.
    I would like to ask consent that a survey that has been 
assembled by my staff of Illinois communities and the 
experience that they have had be made part of the record of 
this Committee hearing.\1\
---------------------------------------------------------------------------
    \1\ The Illinois community survey appears in the Appendix on page 
65.
---------------------------------------------------------------------------
    Chairman Collins. Without objection.
    Senator Durbin. It shows much of what has been said by the 
witnesses today: Clear need unmet by Federal funds and also 
some complications, which I would like to get into in just a 
moment.
    It strikes me that if you step back from where we are and 
assess, as Chief Horvath and others have, 2 years after 
September 11, that you have to put it in the context, and the 
context that I see facing you as firefighters, and police and 
other first responders I alluded to in my opening remarks.
    Unless you are an unusual community in America, you are 
facing a budget crunch. That probably is an annual occurrence 
for most of you, but made even worse by the recession, which 
has reduced local revenues and State revenues, and so you are 
being forced to deal with deficit situations, a hiring freeze, 
cutbacks in the context of this conversation.
    It is also quite likely, from the police side, that you are 
aware of the fact that the President's new budget eliminates 
the COPS program. One of the things brought up to me by most of 
these police departments in Illinois is how valuable that 
program has been--direct assistance from the Federal Government 
for hiring the men and women we need on the street.
    Not coincidentally, incidently, in the 44 cities recently 
surveyed by one group, we found that as the Federal investment 
in law enforcement has gone down, crime rates are going up 
again, which we certainly do not want to see.
    But here you are facing State and local budget deficits, 
cutbacks and elimination of the Federal COPS program, cutbacks 
in the Byrne grant program, which a lot of law enforcement 
agencies have used as part of President Bush's proposed budget.
    Now, a new factor, the activation of the Guard and Reserve. 
And in many of your communities, thank goodness, the local 
units of government have said we are going to make certain that 
this family is not going to face an economic hardship. We are 
going to make up the difference in salary.
    So now you have a new expense. The person is no longer 
there to provide firefighting services in law enforcement, but 
their salary, at least the difference in salary, is coming out 
of your budget. Then add on to this, perhaps, hiring freezes 
that are creating demands for more overtime pay. So you put all 
of that in context, and here is why I wanted to preface my 
question.
    Now, we are standing back and saying, ``We want to prepare 
you to fight terrorism,'' and I would imagine if I were in your 
shoes, the first thing you would say to me honestly is, ``I 
have got to worry about having enough people in the squad cars, 
on the streets, in the fire departments. Certainly, we need gas 
masks, we need training, we need to know about bioterrorism, 
but I am dealing with the basics. Before you offer me a brand 
new computer, I need to put a roof on my house, and the rain is 
pouring in.''
    How do we parse this out? How can we say to you we want to 
give you add-on funds for new needs and requirements at a time 
when you are being hollowed out from within by all of the 
factors that I just mentioned?
    Chief Chitwood.
    Mr. Chitwood. That is a very difficult question to answer, 
and I will try and tell you what we are doing right now.
    As a result of the budget crisis that we are in, we are now 
eliminating programs. A foundation of what we do in Portland is 
community policing. And what I have had to do is I have had 
to--I have five centers--so I had to eliminate an officer in 
each center and put those officers on the front line. I had to 
reduce my DARE program. I had to reduce my Officer Friendly 
program. I took them out of the schools, put them answering 911 
calls because that is our priority. People call 911, they 
expect somebody to arrive.
    Like Chief Horvath said with respect to his traffic, I had 
to reduce my Traffic Unit. I had to reduce my Drug Unit to put 
those officers on the street. Now, when we have the added 
manpower issue of having to follow and police the airport, I 
have the greatest percentage of my force working out at the 
airport, and I have this big void in what I do on the street. 
So that is what we are doing.
    With respect to this hearing, as I see the increased 
threats, we are in an orange alert, my expectation would be 
based on the alerts that soon we could be on a red alert. I 
hope not, but there is a strong possibility.
    Then, that leaves a tremendous hole on the waterfront, the 
pipeline, the cruise ships, and the oil tankers that go through 
our community, and I do not have the resources to do it. I just 
do not have the resources to do it.
    Earlier, when I talked about the void that I have with 
respect to 18 officers down, 9 are vacant positions due to 
vacancies. I have 4 officers out on stress-related incidents, 
and when I look at what they made working overtime, they are 
the highest paid officers because they are working 
consistently. Three of them are out with heart attacks, and 
these guys are 41/42 years of age.
    Now, I am not a doctor, and I am not saying it is directly 
related, but the stress factors that are put on us to have to 
fill these slots has had a toll not only financially, but 
physically and emotionally.
    Senator Durbin. Could I ask you, if I might, because my 
time has run out, but if each of the others could just comment 
very briefly on this question of whether or not you are seeing 
a hollowing out of your basic core of services, in firefighting 
and police, at a time when we are discussing add-on funds to 
fight terrorism and how you are going to cope with it. If you 
could just give me a brief response, I would appreciate that.
    Chief Horvath.
    Mr. Horvath. The Dover Police Department is pretty lucky. 
We have only lost two sworn police officers to call-up duty by 
the military. However, we have several officers injured because 
it is a dangerous job, and they get injured.
    I agree with the chief. I have also had to decrease the 
size of two of my--I have lost a DARE officer to the Patrol 
Division, and I have lost a community policing officer to the 
Drug Unit. I refuse to decrease the size of my Drug Unit 
because that is one of our biggest problems in the city.
    The problem with it is, when a police officer leaves, and I 
have 13 that can retire this calendar year, it takes about a 
year-and-a-half to get an officer back on the road and trained 
properly, where he is an effective police officer replacing 
them. So those are problems that we are looking at in the 
future.
    But as far as the issue of homeland security, lucky I have 
most of my department there, but we are taking away from normal 
police duties to cover homeland security issues. A lot of 
people will call, one of their concerns is they would like to 
see a police officer drive through their neighborhood every 
once in a while. Well, that is not happening like it should. 
That is not happening like they deserve it to happen because we 
have them out doing security checks and checking other things 
in the city that I really will not get into for obvious 
reasons.
    But the issue of homeland security is pulling from the 
workforce of traditional police work, and it is taking it to 
another area, and it would be nice to be able to supplement 
that.
    Another issue of the funds that is really bothering us is 
we need training and equipment, and we are not getting it, and 
those issues need to be taken care of.
    Senator Durbin. Chief Plaugher.
    Mr. Plaugher. Yes, Senator, you are right on target with 
your talking about the hollowing out. Every day I have to 
provide basic services of responding to heart attacks, and the 
threat of fire. We have requested repeatedly some Federal help 
to provide firefighters, the SAFER Act, the Fire Grant Act 
program, and that sort of thing.
    There is a critical need in every community for first 
response resources that has been brought before Congress 
repeatedly, and we continue to stress that we need those folks 
capable.
    Call-ups of the military have impacted. I have four 
firefighters, paramedics who are currently serving in the war 
effort in various capacities. I have to back-fill their absence 
with additional firefighters, and we are a community that does 
make up the differences in salaries and benefits to our 
employees because of our commitment to them and to the work 
that they do, both in the community and abroad.
    However, there is also something else that is occurring 
that is I think of major importance. The threat of terrorist 
attack in our Nation is working on our employees. I am 
currently now suffering the highest level of injuries in my 
department's history. Yes, we are a community that was attacked 
on September 11, but it is starting to work at my fabric. It is 
starting to erode away at my capability to provide services 
because the stress is enormous, and when I say the stress is 
enormous, because they are not seeing Federal support for the 
programs that we are asking for.
    They see their chief out doing national efforts to make the 
resources available, but they are seeing nothing coming out the 
end of the stream, and so the frustrations just continue to 
mount, from their perspective, and again I am at the highest 
injury level ever in the history of my department, and that is 
an enormous cost to my community. So it is eroding other basic 
services.
    When we provide firefighters and paramedics on an overtime 
basis, more than likely I am removing resources from a human 
services program in the county because, in our community, 
public safety gets the highest priority. And so the spill-down 
effect is to the people who are most in need.
    So I, again, stress to this Committee, let us make this 
effort work so that our men and women who serve our communities 
as firefighters, and paramedics, and police officers see the 
product of the efforts so that, again, these stresses do not 
have the impact that it does.
    Mr. Bowers. Senator, in response to the personnel part of 
your question, the SAFER Act is right on target. That will 
allow the communities to hire people and not bear the full 
weight of that cost until several years down the line.
    In response to the terrorist or weapons of mass destruction 
portion of your question, some of the things for the Fire 
Service that come under some of the other programs, equipment 
and training, those things will also strengthen our ability to 
respond to the normal or every-day occurrences that we have to 
deal with. So the SAFER Act will help us to bring more people 
on board. Strengthening our equipment and training will allow 
us to be better across the board.
    Also in terms of the personnel, you have heard it mentioned 
here by other colleagues, the stress that is related to the 
high levels of overtime and trying to make this work without 
adequate resources is another factor that we encounter. And we 
are different in the sense that if we require a certain number 
of people and a location, we have to maintain that. If somebody 
is off because they are sick, they have been deployed, we still 
have to put another person there. We simply cannot leave that 
spot vacant until the next time somebody reports to work.
    My final point is, locally, we have approximately eight 
people that have been deployed, with the worst case scenario of 
approximately 25 that may be deployed, and some of those people 
have notified us that they will be deployed for up to 2 years.
    Senator Durbin. Thank you. Thanks, Madam Chairman.
    Chairman Collins. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Madam Chairman.
    I want to thank the witnesses for being here today. I 
appreciate what all of you do every day. For the 4 years before 
I came here I was the Attorney General of my State, so I felt 
very much involved in the law enforcement community back home 
and in public safety issues across the board.
    Let me ask, just generally, of all four of you, one of the 
things we found on September 11 is that our various law 
enforcement, first responder organizations could not 
communicate with each other very well. It was not 
interoperable. My sense is that the Department of Homeland 
Security should take a lead in making that happen, but I would 
like to hear your thoughts on that. Is the Department of 
Homeland Security doing anything about that, and have we made 
any improvements in that since September 11?
    Mr. Bowers. Yes, Senator. You are absolutely correct. 
Communications between agencies is a key factor. Right now we 
certainly have difficulties in that area. In fact, I am sitting 
next to the Chief from Arlington County, and if we had to go to 
the Pentagon today, we do not necessarily have a reliable way 
of communicating with his agency. We have to institute 
patchwork measures to try to get that to occur, so that is 
absolutely a key factor that needs to be addressed, not only in 
this area but across the country. Fire, police, emergency 
medical services, and your key responders, have to be able to 
talk to one another to mitigate these incidents in a quick and 
efficient manner.
    Senator Pryor. Are you aware of anything the Department of 
Homeland Security is doing to bring that into being?
    Mr. Bowers. I am aware of some local initiatives that are 
being worked on to try to address that issue. I am not aware 
today of any issues coming from the Department of Homeland 
Security.
    Mr. Plaugher. It is interesting, Senator, that you asked 
that question because tomorrow I am supposed to receive a brief 
from Homeland Security as a member of the Executive Committee 
of what is called PSWN, which is Public Safety Wireless Network 
program, that has been undertaken, a joint program by the FBI 
and Treasury for multiple years to try to address this issue of 
interoperability. So I would be better able to answer your 
question tomorrow after Homeland Security tells me what they 
intend. The word on the street is, is that they are trying to 
figure out an approach to something that we think is very 
straightforward, and that is that we need interoperability. We 
need it now.
    Congress, multiple years ago, asked the FCC to dedicate 
frequencies for public safety needs. That has not happened. We 
still do not have the frequencies necessary. So even if we had 
the resources to build a radio system, we do not have the 
frequencies available because of the problem with the FCC and 
what Congress has tried to do there.
    This is again a very complex issue, but at the end of it, 
we are still not where we need to be.
    Mr. Bowers. As the Captain was saying, I cannot talk to his 
firefighters or paramedics in a catastrophic incident.
    Senator Pryor. I would like for you, if you could, to give 
me a little update after your meeting tomorrow, and kind of 
tell us now where you sense that we are.
    Mr. Plaugher. I would be glad to. Combing the halls today 
are other Executive Committee members, and I am talking about 
combing the halls of Congress today because they are very 
concerned about what they are hearing is going to happen from 
Homeland Security. So we will be back to you, sir.\1\
---------------------------------------------------------------------------
    \1\ ``The Report Card on Funding Mechanisms for Public Safety Radio 
Communications'', August 2001, appears in the Appendix on page 69.
---------------------------------------------------------------------------
    Senator Pryor. Great. Thank you.
    Mr. Horvath. Sir, in Delaware, we do have the ability to, 
with our 800 megahertz system, due to our size again, to talk 
to each other if we all are told through dispatch to go to the 
same channel. My understanding is we can also communicate with 
all the fire departments in the State also.
    The concern there is, however--in most of the scenarios 
that we do, when we do tabletop exercises or real exercises, 
whether the weapon of mass destruction use, the system will 
probably be out, and there is no high-band backup to it any 
more. Most departments have gotten rid of their high-band 
radios, and if they still had them, we could not talk agency to 
agency like we could before.
    So, the short answer to your question, is yes, we can 
communicate with each other in certain situations. Sometimes it 
has to be county to county, whether you are on the repeater or 
not, but no, there is no backup system, and I am not aware of 
anything that Homeland Security is doing in Delaware in regards 
to that issue.
    Senator Pryor. A follow up on that. Are you aware in 
Delaware whether the Federal Government can access your 800 
megahertz system; do you know that?
    Mr. Horvath. I am not aware of whether they can or not. I 
do not believe so.
    Mr. Chitwood. Senator, I will break the communication 
question down into two areas. Technology-wise, as a result of 
the government, through these grant processes, we have 
enhanced, I would say, I would give us an A plus in our 
technological communications between different departments, 
MED. On September 11 the alleged ringleader of this group of 
terrorists, Mohamed Atta, and one of his cohorts, Abdul 
Alomari, went through our airport on their way to this massive 
destruction that they were involved in. Initially, the 
communication issue between the local police department and the 
Federal Government was absolutely horrible, and particularly 
the FBI. And I have shared that locally and nationally since 
that date. I believe that as a result of Homeland Security, 
increased participation by administration in the Federal level, 
that those types of barriers and those types of communication 
levels are much better, certainly much better than anything I 
have seen, but they still have a long way to go, as we look at 
this new way of policing our country.
    Senator Pryor. Thank you.
    Chairman Collins. Thank you, Senator Pryor.
    I want to follow up on the communication issue that Chief 
Chitwood just raised. We are now at a state where we are at the 
Orange Alert Level. And I would like to ask each of you two 
questions related to that. First, how did you learn that we had 
gone to an alert level of orange? And second, does that system 
for communicating the increased alert status work better now? 
There were terrible problems in the beginning, which, Chief, 
you referred to as well. And I would like to just ask all of 
you those questions, starting with Chief Chitwood.
    Mr. Chitwood. The last level, the Orange Level, I had heard 
vis-a-vis TV, radio that we were at Orange, but I never saw 
anything vis-a-vis teletype. Probably 8 hours later we got a 
teletype, and I learned it from CNN.
    Chairman Collins. That is so troubling to me that still 
seems to be the source, with all due respect to CNN's good 
reporting, but it just is extraordinary to me.
    Chief Horvath.
    Mr. Horvath. I also learned about the alert from watching 
the news. If we did get a teletype 8 hours later, it was never 
brought to my desk. I do not think we did. I will say 
diagonally across the street from my office is the local FBI 
office in Dover, and communications have improved greatly over 
the past few months. There is a problem where information 
cannot be--it is something I did not bring up earlier, but I 
will bring it up now. I get things that cannot be told to me 
because it is top secret. And then you hear about it later on 
the news and you mention it, and they want to know how you know 
it because it is top secret. If the news can know it, I think 
the police departments and the fire departments across the 
country ought to know it.
    Chairman Collins. Well, that is something we can relate to 
when we have our classified briefings, and then go back to our 
offices and find out on the news what we just learned in the 
highly classified briefing.
    Chief, how did you find out?
    Mr. Plaugher. If my memory is correct, I think I was told 
by a friend who has a friend who has a wife that works as a 
clerk in a government office, and the government office was 
advised that they were going to the Orange Alert. So I went 
back to my emergency services coordinator and asked him the 
specific question, ``Are we at Orange Alert?'' He did not know. 
He was going to have to go check. Then eventually we heard it 
on CNN, that we had been raised. As a matter of fact, to this 
day, there is no system to notify the fire departments of the 
United States about anything that happens on a national scale. 
We do not communicate. We do not even have a teletype system to 
talk to each other, so there is no communication network for us 
to receive alerts or inside information, or I should say 
information that we think is critical to our ability to be 
prepared.
    Chairman Collins. We clearly have a lot of work to do in 
that area as well.
    Captain, are you aware of how your department found out 
that we had moved to an alert status of Orange?
    Mr. Bowers. We, too, discovered that by the television 
networks, so that seems to be a common thread here among all 
agencies, that the notification and change of the status 
filters out to us by the network television operations.
    Chairman Collins. That is just so troubling to me. I 
remember a State trooper telling me that on September 11 he 
heard about the attacks on the radio, and radioed in to his 
headquarters to try to find out whether any entity in Maine had 
been attacked. And he just--no one knew who to ask even. The 
communication structure is still very flawed it seems to me.
    One final question from me before I go to Senator Carper. 
All of you have mentioned the need for improved communication, 
and I think the exchange we just had illustrates that. During 
the debate on the Homeland Security Act, Senator Carper, 
Senator Feingold, and I proposed that there be a Federal 
liaison for first responders established in every State, who 
worked for the Department of Homeland Security, but would 
actually be stationed in each of the 50 States. Unfortunately, 
that provision was dropped from the final version of the bill. 
Do you think it would be helpful to have a State liaison who 
worked for the Department of Homeland Security in each of the 
States so there would be a single contact point within your own 
States? Would that be helpful to you, Chief?
    Mr. Chitwood. I think it would. I think that any time you 
can communicate and give people knowledge, it goes a long way 
in assisting with whatever assets your particular community 
needs. I think that is what is needed, especially Homeland 
Security, being the umbrella of what we are going to do in the 
future in our country with respect to any type of terrorism 
type activity, so absolutely. I think it would be a plus.
    Chairman Collins. Thank you. Chief Horvath.
    Mr. Horvath. I agree. I think it would be extremely 
helpful. It would be someone we could call when we have 
questions, someone they can call when they have important 
information to pass on, and it would be very helpful if I 
forget to watch the news and I could find out we are on a 
higher alert status.
    Chairman Collins. Thank you. Chief Plaugher.
    Mr. Plaugher. This is awkward for me, because in the 
Nation's capital area, we do have a coordinator from Homeland 
Security for the Washington, DC immediate area. However, the 
only thing in the Commonwealth of Virginia, the Commonwealth of 
Virginia does not. So it is kind of an awkward situation, and 
we find that the coordinator that we have is just fabulous and 
is doing a spectacular job for the national capital area. So if 
you want to point to an example of how it can work and work 
really well, here is an excellent example for you.
    Chairman Collins. It is a great example. Thank you for 
sharing that. Captain Bowers.
    Mr. Bowers. We are in that national capital area also, but 
I would also bring up a second part to your question. It is not 
only good to have that coordinator, I think, in every State, 
but that coordinator also needs to share particular information 
about what the threat may be, so that the departments can then 
plan and act appropriately to be prepared for that threat. So 
the single point of contact is excellent, but then the 
information flow needs to be there so that we can take the 
appropriate actions once we do receive the information.
    Chairman Collins. Thank you. Senator Carper.
    Senator Carper. Thank you, Madam Chairman.
    To my colleague, Senator Pryor, he was asking questions 
earlier about the ability of various first responders to 
communicate with one another by radio. When I was governor, we 
funded an 800 megahertz program that enables us to have 
communication between firefighters, volunteers, and paid 
firefighters, between police units, State and local police 
units, and also with paramedics and other first time 
responders.
    The question that you asked, one of the questions you asked 
was the ability of the relevant Federal agencies to participate 
in that. Brian Bushweller, who is sitting to the right of Dover 
Mayor Jim Hutchinson, was the secretary of public safety during 
my administration, and he was good enough to come up here to 
the dais to remind me that the Federal agencies who work full 
time in Delaware, including the FBI and others, do have access 
to 800 megahertz. They do have their radios and are able to 
participate as full partners in that.
    I understand when I was out of the room, meeting in the 
next room with some folks from our chemical industry in 
Delaware, who are very much involved in raising science 
education standards in our schools--and I apologize for sort of 
being in and out, but it is important for me to spend time with 
them too--but while I was out of the room, I understand that 
Senator Lautenberg may have asked questions of Chief Horvath 
with respect to Dover Air Force Base, and the nature of the 
duties that you have seen. So I am not going to ask about that. 
I said earlier that I would, but I think those questions have 
already been asked.
    Let me instead ask you if you will--and maybe not just 
Chief Horvath but others as well--to give us some examples of 
the introduction to this whole new set of Homeland Security 
responsibilities that have been delivered to you and expected 
of you. Just share with us again--some of you have already done 
this in your testimonies--but just concrete examples of how 
these new responsibilities have affected your department's 
budget, do you pay more on overtime? Chief Plaugher was talking 
about levels of stress, and absenteeism, and medical leave. I 
would be particularly interested in this. A lot of our first 
responders are people who serve in the guard and reserves, who 
have been activated. We have holes in our units. Some cases you 
are paying, making up the difference between their previous pay 
and the pay that they receive in the military. How do you do 
that and at the same time hire and pay for new employees to 
fill the gaps here? Have you had to purchase new equipment? 
Some examples of new equipment that you have had to purchase 
because of these responsibilities. How do you pay for that? And 
those are just sort of the range of questions I have. You can 
sort of pick and choose if you want to.
    Chief Horvath, you want to take a shot at any of those? And 
then I would ask others to join in.
    Mr. Horvath. Sure, thank you. First off, I would like to 
apologize for not knowing whether or not the Federal agencies 
could speak on our system. We have not had a situation where we 
have had to do that yet. Sorry about that.
    The new responsibilities about Homeland Security that we 
have done, as I touched on a little bit earlier, it has taken 
away from the traditional police services that we provide. We 
have been lucky not to have to increase the overtime by too 
much within the past 6 months. Right after September 11, 
obviously, overtime was very high. And that is we have had to 
transfer money from other line items in the budget to pay the 
officers the overtime, so other things that you planned on 
buying, other services that you offer have suffered because of 
that. We have tried to reduce our overtime by requiring 
officers that are regularly scheduled in various units, patrol, 
community policing, selective enforcement, that type of work, 
that they are actually out doing Homeland Security issues 
instead of doing what I mentioned as regular traditional police 
work. So I think the community is losing out a little bit in 
that area.
    I also mentioned earlier I have reduced the number of 
officers in the community policing unit and in the DARE unit, 
to try to work with that issue.
    Answering your question about new equipment, we have not 
received any funds for new equipment, and we have not purchased 
new equipment other than we now have two bomb dogs that we did 
not have prior to September 11. We have--the city has accepted 
the cost of that. There was no money available at the time. We 
do have two new bomb dogs. I guess I would consider them 
equipment at this point, but as far as suits or item protective 
equipment, I think I can honestly say other than training for 
first responders on what to look for and how to move into a 
situation as far as protective equipment, we are no better 
prepared today than we were on September 10.
    Senator Carper. Thank you, sir.
    Others, please, any examples that you would like to cite in 
response to my questions?
    Mr. Chitwood. From a law enforcement perspective, I have to 
mirror what the chief said. I mean I could take it in exactly 
the same way. The shifting of personnel to the airport in 
particular. We have developed a security plan. Every level of 
Homeland Security, we have additional responsibilities in our 
community. For example, right now we are in an area where we 
are looking at all phone service, gas, electric, water, in the 
city of Portland. We have to be specific in those substation 
areas, the work on that, something we normally would not do, 
but we take those line officers on the street to do these 
things. We have had several incidents on our port where the 
Coast Guard, through their vigilance, have notified us of 
individuals on the waterfront acting suspicious. We had to put 
officers down there, in particular cruise ships. In the cruise 
ship season, the boat lines that go into our different islands, 
delivering people and vehicles. So it has an impact basically 
on what we do in the normal traditional policing of answering 
9-1-1 calls, policing geographical areas and investigating 
crime. Homeland Security needs has dissipated that particular 
strength.
    With respect to equipment and technology, I hate to be 
redundant, but I will. With the ability to apply for the 
Federal grants, as we have right now directly to the Department 
of Justice in their grant processes, we have been able to 
enhance our technology and training issues as they impact our 
department.
    Senator Carper. Thank you. I am not going to ask our other 
two witnesses to respond to that question. I do have one last 
question. It is a variation of the first question that I asked. 
And what I am going to ask you to do in closing for me, would 
be to say if we do nothing else here in Washington, Congress 
and the President, if we do nothing else to enable you to do 
your jobs better with respect to protecting the homeland; if 
you do nothing else, do this and do this next. What would that 
one thing be for each of you? If you do nothing else, do this, 
and do this next. What would that be?
    Mr. Horvath. I will be glad to begin, Senator. Make the 
process straightforward and streamlined. It has to happen. We 
hear about these billions of dollars that are flowing to the 
first responders, and let me assure you, they are not flowing 
to the first responders. They are not getting where they are 
intended. The process needs to be simple, straightforward, and 
needs to be part of a national strategy to prepare our Nation, 
our communities, and it needs to be--I mean your own chart 
talks about the complexities of how to get the funding and that 
sort of thing. It is creating false expectations within our 
community. We have a public that thinks now that everything is 
going to be OK because the government has allocated billions of 
dollars. As you have heard here this morning, the first 
responder community has not changed since September 11. If 
anything, we are stressed out higher. We are facing higher 
demands. But yet no resources have flowed to us. And so, 
Senator Carper, please, if you can influence other members, 
your other colleagues of Congress to make the process not 
convoluted and straightforward.
    Senator Carper. Thank you.
    Mr. Bowers. Senator, I would echo the same comment, that 
the process needs to allow the support to get down to the local 
level faster than it does today. The only other thing that I 
would add is that personnel are a key ingredient in that 
process. So any of the efforts that you are working on that 
would support the hiring of additional personnel are key, 
because that is going to help us reduce some of the overtime, 
some of the stress levels that are caused as staffing is 
reallocated to address Homeland Security issues. I think most 
departments have some level of funding available to provide 
basic equipment and other things, but if they have the people, 
they can make progress.
    Senator Carper. Thank you.
    Mr. Horvath. Senator Carper, I think if you could just do 
one thing, I think it would be what they are saying, is to get 
us the funds, make it flexible, and make it so that we can do 
our job better and still offer our traditional police services. 
I will not try to say better what they just said. I agree with 
everything they just said.
    Senator Carper. Thank you.
    Mr. Chitwood. I agree with my cohorts. Let the Federal 
Government distribute funds wherever the needs are the 
greatest, through the grant programs that are already in place, 
that have worked and will continue to work as long as there is 
money, and/or create a separate pool of funds for the neediest 
cities with the highest threat risk.
    Senator Carper. Thank you.
    That would seem to again Madam Chairman, that would seem to 
argue for the legislation that we will be introducing later 
today, providing the flexibility.
    Chairman Collins. Yes.
    Senator Carper. And it would also seem to argue for the 
idea of the proposal that you and Senator Feingold and I worked 
on establishing one person in each State as a key point of 
contact. That is interesting. Thank you very much. That is all.
    Chairman Collins. Thank you, Senator Carper. Senator Pryor.
    Senator Pryor. Thank you. Let's follow up on what we were 
talking about here just a few moments ago, and I think pretty 
much it is unanimous that the one thing we need to try to do is 
make sure this money is getting out to first responders.
    Chief Chitwood, I believe it was you that said we have in 
existence the Department of Justice system that I think most of 
you all are familiar with about getting equipment, grants, and 
etc. I know in Arkansas we utilize that very heavily for our 
first responders.
    But let me ask this just generally to everyone. What is the 
problem? Why is it not getting through? I mean is it red tape? 
Is it just because we have a new department that is getting 
started and getting rolling, and it just has not gotten there 
yet? I mean, what is the problem?
    Mr. Chitwood. I think it is a combination of factors. When 
you look at your chart, the Tangled Web of Federal Homeland 
Security Grant Programs, that kind of says it all.\1\
---------------------------------------------------------------------------
    \1\ The chart entitled ``Tangled Web of Federal Homeland Security 
Grant Programs'' appears in the Appendix on page 68.
---------------------------------------------------------------------------
    I also believe that--and it has been mentioned here, 
especially by the Senators. When we look at the budget crisis, 
and with all due respect to Senator Carper, when he was 
Governor, my experience shows that when funds go through the 
State, there is a bureaucratic nightmare that is created, that 
those resources do not get to the most neediest or to the 
people who need it right away.
    Obviously, the State--and we have a wonderful Governor in 
the State of Maine, but he has other priorities, the State 
Police, Department of Corrections, and sometimes that money 
gets shifted around to different programs that do not impact on 
first responders, whether they be fire, police or MED-Q. I 
think that is why it is important that we as leaders in our 
particular fields or our communities, can reach out to the 
point, the source of contact, and that is the Federal 
Government, and say, ``Hey, here is a process. This is what we 
need, and then you hold us accountable for what we do.''
    Senator Pryor. That is how the DOJ system has worked, 
right, that you apply directly to DOJ?
    Mr. Chitwood. Basically.
    Senator Pryor. So in other words, you think that the State 
is an unnecessary step?
    Mr. Chitwood. No. I think that the State has to be part of 
the process. I just believe that there may be too much emphasis 
on the State. I know what I need in Portland. If you send money 
to the State. Now I have to articulate my need to the State, 
and maybe I will get it. But if I apply, based on experience 
and past history, directly to the Federal Government, I 
articulate the need, I am audited on what I get from them. I 
can proceed to go forward, and that process, in my 38 years of 
experience and the last 19 years as a police chief, that really 
works. It has done more to enhance the quality of 
professionalism in policing throughout the country, and I 
believe that is how it works, and I am sure it could work just 
like with the fire and other first responders.
    Senator Pryor. I would like to hear from the other three. 
Do you all agree with what he said?
    Mr. Bowers. Yes, I agree, Senator, but I also have a couple 
other points. The problems that we experience are the 
restrictions on the use of the funds. The maze of applications 
that are out there for the various grants that are eligible to 
apply for, and the fact that there is not one consistent 
process to request money from the Federal Government.
    So those are some of the major factors that we have to deal 
with, and all of those end up with their own version of 
bureaucracy or red tape.
    Senator Pryor. All that sounds very fixable to me.
    Mr. Plaugher. Senator, we have talked about the issue with 
Brown Nissal earlier today. But right to the point, there are 
several programs that have worked and worked exceptionally 
well, the COPS program within law enforcement, the FIRE Act 
program within the fire community from the U.S. Fire 
Administration. They are simple. They are straightforward. They 
go to localities. They have some local matches required to make 
sure there is a commitment for follow-through. There are also 
audits and that sort of thing. But yet when it comes to 
homeland security, protecting our citizens from the threat of 
terrorists which we know are real, it is not if but when the 
next attack will occur. We are now in a convoluted process that 
at the end stream, very little or anything is at the end point 
where it needs to be, which is on the front lines to the 
firefighters, the paramedics and the law enforcement members of 
our community. It seems like somehow we are not learning our 
own lessons. We have programs that work well. We have COPS 
programs. We have FIRE Act programs, but yet again, we are all 
deeply concerned about our safety from threat of homeland 
security, from the threat of terrorism. Yet we will not even go 
to the successful programs and emulate them, or copy them for 
this.
    We at the local level, we are absolutely befuddled. We are 
sitting here trying to figure out what happened. Where did the 
disconnect go? The only thing we can say is, ``It is Washington 
politics.'' Wow. That cannot happen here, folks. We are on a 
new world, new threats. We have got to stop the Washington 
politics. We have got to get the money where it needs to be, 
and that is to local communities. Do States have needs? 
Absolutely. Our States are in the worst fiscal condition that 
they have been in in many decades. Should we address their 
emergency management needs? Absolutely.
    So I am not saying that a slice of it should not go to the 
States to bolster their needs, because States are key to the 
process, but let us make it simple, straightforward and 
effective. Thank you for the question, sir.
    Senator Pryor. You bet.
    Mr. Horvath. I agree with most things said. I will say 
that, as I said earlier, I think some of the money needs to 
come directly to the police department, similar to how the COPS 
grant works. I will say in Delaware's defense though, that they 
have always done a very good job of administering some grant 
monies out there through the criminal justice counsel. I think, 
as I mentioned earlier, what they are doing with DEMA, 
distributing some of the money through DEMA would be good, but 
I do not think all of it. But through that, all the police 
departments in Delaware are going to be on the same page with 
the same protective equipment, which I think is a good idea.
    So I am a little mixed. I think some of the money needs to 
come directly to us. Some of it needs to go to the State and 
have them deal it out.
    Senator Pryor. Yes. I can see a real common sense role the 
State can play to provide oversight in the framework. That 
would be great.
    One last question for you. You mentioned Washington 
politics a moment ago, and I know one of the contentious issues 
here--I think this was a little bit before my time here. I 
think most of this discussion happened late last year, about 
homeland security and unions and labor organizations. I am not 
trying to put words in people's mouths, but out around the 
country I think the question really was, are these law 
enforcement unions and other firefighters' unions, etc., would 
they be a help or a hindrance when it comes to homeland 
security? That was, like I said, a fairly contentious issues 
that the Congress dealt with last year. I would like to hear 
your thoughts on that. If I could just start with you, because 
not only are you on the front line, so to speak, but you are 
also administrators and you deal with these personnel issues 
all the time.
    Mr. Bowers. I think that they would be a help from the 
standpoint of unions are basically going to fight for the 
appropriate resources in a jurisdiction, and they are also 
going to work to keep management honest. The bottom line is, to 
respond to any of these conditions that we have talked about 
today, in the very beginning of that incident, you need the 
appropriate people with the right equipment, with the training 
to carry out that mission. What we have today is a situation 
where in a lot of jurisdictions we do not have the number of 
people that we need. We lack equipment and we lack training to 
deal with some of these specific things that we were talking 
about related to homeland security. So from that perspective, I 
think that the unions could actually be quite a benefit to 
helping get this done.
    Senator Pryor. OK.
    Mr. Plaugher. I think that we have had a new day in our 
Nation, as I was talking about deep concern about homeland 
security and homeland preparedness. We have had the best 
cooperative, collaborative effort between the International 
Association of Fire Chiefs and the IAFF, the International 
Association of Fire Fighters ever in the history of the two 
organizations. It has been a model program that focuses on the 
fire fighters' safety, the community's safety. We have passed 
new national standards that again encompassed the needs of 
community based upon local assessments and local concerns. I 
think that there is not a barrier there. I think there is a 
joint effort of deep concern about making sure that adequate 
resources are within your community, sir.
    Mr. Horvath. I agree with both Captain Bowers and Chief 
Plaugher, what they have stated, and I really cannot add too 
much more to it.
    Senator Pryor. OK.
    Mr. Chitwood. The union issue has not been a concern in the 
city of Portland. I mean my department has two unions, PBA and 
SOA--PBA for police officers, SOA for superiors. I know that 
the TSA has 160 employees in our city. I have had the 
opportunity to see what they do. They are non-union. They do a 
great job. They hire the people they want to hire, and I do not 
see it as a negative or a positive. They are just doing what 
they do best, and they have an excellent presence. More than I 
have, but there has been no impact with respect to unionization 
or not.
    Senator Pryor. Thank you.
    Chairman Collins. Thank you, Senator.
    I want to thank my colleagues for joining me this morning 
for this very important hearing.
    Most of all I want to thank our witnesses. You truly have 
given us extraordinarily helpful testimony. I also want to take 
this opportunity to thank you on behalf of this panel for the 
extraordinary work that you are doing, each and every day in 
your communities. We are very grateful to you. It is why I 
wanted to hear first from those who are on the front lines as 
we seek to tackle this issue. You have given us a number of 
very practical suggestions, and I am confident that working 
together we can come up with legislation that will achieve our 
goal of making sure that the money that we are appropriating 
does get to you, and helps you in a way that makes our Nation 
more secure. We want to make sure that our folks who are on the 
front lines receive the equipment, the training, the staffing, 
and the planning that they need to be as effective as possible.
    So your suggestions were excellent, and we will continue to 
work with you, and I thank you very much for taking the time to 
be here today.
    Finally, I also want to thank my staff, which has worked 
very hard in putting together this hearing, and to announce 
that our next hearing on the issue of homeland security and 
first responder funding is scheduled to take place on Thursday, 
May 1. At that time we will hear from Secretary Ridge--you have 
given us a lot of issues to raise with him--as well as State 
and local governments, and that will help address the issue of 
how do we make sure the money flows down to the local level and 
to local fire, police and emergency medical personnel, who 
really need it. So we are looking forward to that hearing as 
well.
    The record for this hearing will remain open for 15 days 
for the submission of additional statements or questions.
    Before I adjourn the hearing, I just want to turn to my two 
colleagues to see if they have any closing remarks?
    Senator Carper. I think, Madam Chairman, you have given a 
fitting benediction to a most informative and extraordinarily 
helpful hearing, and to that benediction I would simply just 
say amen.
    Chairman Collins. Thank you. This meeting is now adjourned.
    [Whereupon, at 11:43 a.m., the Committee adjourned.]
                            A P P E N D I X

                              ----------                              


                PREPARED STATEMENT OF SENATOR LIEBERMAN
    Madam Chairman, thank you for holding this hearing on the 
challenges facing the first responders on whom we depend to protect our 
homeland.
    This hearing comes almost 19 months after the September 11, 2001, 
terrorist attacks awakened our nation to the absolute necessity of 
fully supporting the men and women who are on the front lines of this 
struggle. That day demonstrated that when our country is attacked, it 
is the police, fire fighters, and emergency management technicians who 
will be the first to the scene of a disaster, risking their own lives 
to save others.
    But the attacks and subsequent events have also demonstrated that, 
in some crucial ways, those heroic first responders are not getting the 
support they need and deserve from the Federal Government. We now know 
that many of our first responders have not received the training or 
equipment they need, that they cannot communicate with one another 
during emergencies, and that in many places, their ranks are simply not 
strong enough--in part because many reservists and Guardsmen were 
called up to help fight the war in Iraq--to do the job we have asked 
them to do.
    This is shameful. It must end. We've made some slight progress in 
the past few months--some of the resources promised many months ago are 
finally available. But from sea to shining sea, first responders 
continue to tell us that we still have not provided nearly enough to 
make sure that they are well trained, staffed, and equipped to meet the 
challenges they face.
    Right now, too many first responders are being forced to tread 
water and wait for the Federal lifeline. The city of Los Angeles has 
identified more than $70 million in overtime expenses it has incurred 
since the September 11 attacks. The city has already spent nearly $200 
million beefing up security at its airport and shipping port, as well 
as upgrading police, fire, and health departments. Even so, Jack Weiss, 
an L.A. City councilman, says that the city is as vulnerable now as it 
was 17 months ago.
    New York City's Police Department, faced with a more complex and 
demanding job than ever, is operating with 4,000 fewer men and women 
than 2 years ago. And many of the officers and supervisors who would be 
first to respond to an incident still have not received any special 
equipment or training to respond to an attack with unconventional 
weapons.
    The story is the same in Massachusetts, where a survey by The 
Boston Globe found that the 10 largest police departments have 424 
fewer officers than they did a year ago and will lose at least 50 more 
by July 1 as a result of State budget cuts in local aid.
    In Arkansas, the Governor has stated that there is no way they can 
do the job of protecting homeland security with current resources, or 
without more Federal aid than is currently in the pipeline. The biggest 
single need, he identified, is to upgrade emergency communications for 
first responders because in a terrorist attack, or even a natural 
disaster like a tornado or flood, the various jurisdictions that would 
respond don't have the ability to communicate.
    In my own State of Connecticut, New Haven Mayor John DeStefano Jr., 
President of the National League of Cities, says the city has only been 
able to outfit about 10 percent of its 300 firefighters with protective 
equipment for responding to a chemical or biological attack. What are 
we waiting for?
    The International Association of Firefighters, whom we will hear 
from today, has consistently told us that the nation's fire departments 
need more troops, better technology, and more training to adequately 
protect our people. The National Association of Police Organizations 
tells a similar story--stating that homeland security funding must be 
increased to alleviate officer layoffs and overtime, and improve 
technology to combat terrorism. Remember, terrorism isn't our police 
officers' only job. They also need to keep fighting domestic crime.
    The bottom line, Madam Chairman, is that, with State and local 
budgets in their biggest crisis since World War II, police and fire 
departments are being cut back just as the threats they need to meet 
are growing. That's like turning off the air conditioner for the summer 
time. Yet the administration has consistently opposed efforts to 
provide the level of assistance our local first responders need, 
choosing instead to provide massive new tax cuts to those who need them 
least. And even the increases in funding that have been proposed are 
misleading--as they come at the cost of existing law enforcement 
assistance programs.
    We have to do better. I've put forward a plan for $7.5 billion in 
new funding for our first responders beyond the President's budget for 
this coming year. That will enable communities across the country to 
start upgrading communications equipment, improve information sharing, 
enhance training, expand their ranks, and rise to the challenges we 
face. Will the Administration put our dollars where the danger is, or 
will it continue to talk tough without providing the real resources our 
communities need to do the job?
    Madam Chairman, in addition to providing more funds, we also have 
to ensure that the funding we provide is delivered with a minimum of 
red tape and delay. There's been a lot of talk these past few months 
about duct tape; but what we say and do about red tape is just as 
important to the fight against terrorism. This hearing, and others we 
will have to look closely at the way these programs work, will help us 
learn directly from those they are intended to help how we can make 
them better. The current array of programs is clearly too cumbersome, 
too confusing, and in many ways inefficient. We need to understand what 
works and what doesn't. And we need to make sure that we fix what is 
broken while leaving alone that which is working well.
    So I want to thank you for holding this hearing and thank our 
witnesses for sharing their expertise with us. Our country is facing an 
unprecedented challenge--and we have to put aside old ways of thinking 
and provide the resources necessary to meet the challenges that we 
face. We have to work diligently and improve these funding programs 
where they need to be improved, to ensure that they meet the objectives 
that we have set. This hearing is an important step in that direction.
[GRAPHIC] [TIFF OMITTED] T7739.001

[GRAPHIC] [TIFF OMITTED] T7739.002

[GRAPHIC] [TIFF OMITTED] T7739.003

[GRAPHIC] [TIFF OMITTED] T7739.004

[GRAPHIC] [TIFF OMITTED] T7739.005

[GRAPHIC] [TIFF OMITTED] T7739.006

[GRAPHIC] [TIFF OMITTED] T7739.007

[GRAPHIC] [TIFF OMITTED] T7739.008

[GRAPHIC] [TIFF OMITTED] T7739.009

[GRAPHIC] [TIFF OMITTED] T7739.010

[GRAPHIC] [TIFF OMITTED] T7739.011

[GRAPHIC] [TIFF OMITTED] T7739.012

[GRAPHIC] [TIFF OMITTED] T7739.013

[GRAPHIC] [TIFF OMITTED] T7739.014

[GRAPHIC] [TIFF OMITTED] T7739.015

[GRAPHIC] [TIFF OMITTED] T7739.016

[GRAPHIC] [TIFF OMITTED] T7739.017

[GRAPHIC] [TIFF OMITTED] T7739.018

[GRAPHIC] [TIFF OMITTED] T7739.019

[GRAPHIC] [TIFF OMITTED] T7739.020

[GRAPHIC] [TIFF OMITTED] T7739.021

[GRAPHIC] [TIFF OMITTED] T7739.022

[GRAPHIC] [TIFF OMITTED] T7739.023

[GRAPHIC] [TIFF OMITTED] T7739.024

[GRAPHIC] [TIFF OMITTED] T7739.025

[GRAPHIC] [TIFF OMITTED] T7739.026

[GRAPHIC] [TIFF OMITTED] T7739.027

[GRAPHIC] [TIFF OMITTED] T7739.028

[GRAPHIC] [TIFF OMITTED] T7739.029

[GRAPHIC] [TIFF OMITTED] T7739.030

[GRAPHIC] [TIFF OMITTED] T7739.031

[GRAPHIC] [TIFF OMITTED] T7739.032

[GRAPHIC] [TIFF OMITTED] T7739.033

[GRAPHIC] [TIFF OMITTED] T7739.034

[GRAPHIC] [TIFF OMITTED] T7739.035

[GRAPHIC] [TIFF OMITTED] T7739.036

[GRAPHIC] [TIFF OMITTED] T7739.037

[GRAPHIC] [TIFF OMITTED] T7739.038

[GRAPHIC] [TIFF OMITTED] T7739.039

[GRAPHIC] [TIFF OMITTED] T7739.040

[GRAPHIC] [TIFF OMITTED] T7739.041

[GRAPHIC] [TIFF OMITTED] T7739.042

[GRAPHIC] [TIFF OMITTED] T7739.043

[GRAPHIC] [TIFF OMITTED] T7739.044

[GRAPHIC] [TIFF OMITTED] T7739.045

[GRAPHIC] [TIFF OMITTED] T7739.046

[GRAPHIC] [TIFF OMITTED] T7739.047

[GRAPHIC] [TIFF OMITTED] T7739.048

[GRAPHIC] [TIFF OMITTED] T7739.049

[GRAPHIC] [TIFF OMITTED] T7739.050

[GRAPHIC] [TIFF OMITTED] T7739.051

[GRAPHIC] [TIFF OMITTED] T7739.052

[GRAPHIC] [TIFF OMITTED] T7739.053

[GRAPHIC] [TIFF OMITTED] T7739.054

[GRAPHIC] [TIFF OMITTED] T7739.055

[GRAPHIC] [TIFF OMITTED] T7739.056

[GRAPHIC] [TIFF OMITTED] T7739.057

[GRAPHIC] [TIFF OMITTED] T7739.058

[GRAPHIC] [TIFF OMITTED] T7739.059

[GRAPHIC] [TIFF OMITTED] T7739.060

[GRAPHIC] [TIFF OMITTED] T7739.061

[GRAPHIC] [TIFF OMITTED] T7739.062

[GRAPHIC] [TIFF OMITTED] T7739.063

[GRAPHIC] [TIFF OMITTED] T7739.064

[GRAPHIC] [TIFF OMITTED] T7739.065

[GRAPHIC] [TIFF OMITTED] T7739.066

[GRAPHIC] [TIFF OMITTED] T7739.067

[GRAPHIC] [TIFF OMITTED] T7739.068

[GRAPHIC] [TIFF OMITTED] T7739.069

[GRAPHIC] [TIFF OMITTED] T7739.070

[GRAPHIC] [TIFF OMITTED] T7739.071

[GRAPHIC] [TIFF OMITTED] T7739.072

[GRAPHIC] [TIFF OMITTED] T7739.073

[GRAPHIC] [TIFF OMITTED] T7739.074

[GRAPHIC] [TIFF OMITTED] T7739.075

[GRAPHIC] [TIFF OMITTED] T7739.077

[GRAPHIC] [TIFF OMITTED] T7739.078

[GRAPHIC] [TIFF OMITTED] T7739.076


</pre></body></html>
